<html>
<title> - SEAMLESS TRANSITION: REVIEW OF THE INTEGRATED DISABILITY EVALUATION SYSTEM</title>
<body><pre>[Senate Hearing 112-556]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-556

 
  SEAMLESS TRANSITION: REVIEW OF THE INTEGRATED DISABILITY EVALUATION 
                                 SYSTEM

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 23, 2012

                               __________

       Printed for the use of the Committee on Veterans' Affairs


         Available via the World Wide Web: http://www.fdsys.gov



                  U.S. GOVERNMENT PRINTING OFFICE
74-394                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4e293e210e2d3b3d3a262b223e602d212360">[email&#160;protected]</a>  


                     COMMITTEE ON VETERANS' AFFAIRS

                   Patty Murray, Washington, Chairman
John D. Rockefeller IV, West         Richard Burr, North Carolina, 
    Virginia                             Ranking Member
Daniel K. Akaka, Hawaii              Johnny Isakson, Georgia
Bernard Sanders, (I) Vermont         Roger F. Wicker, Mississippi
Sherrod Brown, Ohio                  Mike Johanns, Nebraska
Jim Webb, Virginia                   Scott P. Brown, Massachusetts
Jon Tester, Montana                  Jerry Moran, Kansas
Mark Begich, Alaska                  John Boozman, Arkansas
                       Kim Lipsky, Staff Director
                 Lupe Wissel, Republican Staff Director


                            C O N T E N T S

                              ----------                              

                              May 23, 2012
                                SENATORS

                                                                   Page
Murray, Hon. Patty, Chairman, U.S. Senator from Washington.......     1
Boozman, Hon. John, U.S. Senator from Arkansas...................     4
Burr, Hon. Richard, Ranking Member, U.S. Senator from North 
  Carolina.......................................................     5
    Prepared statement...........................................     5
Tester, Hon. Jon, U.S. Senator from Montana......................     6
Johanns, Hon. Mike, U.S. Senator from Nebraska...................    94

                               WITNESSES

Rooney, Jo Ann, Acting Under Secretary of Defense for Personnel 
  and Readiness, U.S. Department of Defense......................     6
    Prepared statement...........................................     9
    Response to prehearing questions submitted by Hon. Richard 
      Burr.......................................................    12
    Response to posthearing questions submitted by:
      Hon. Patty Murray..........................................    33
      Hon. Richard Burr..........................................    47
      Hon. Bernard Sanders.......................................    51
    Response to request arising during the hearing by:
      Hon. Jon Tester and Hon. John Boozman......................    89
      Hon. Patty Murray..........................................   100
Gingrich, John R., Chief of Staff, U.S. Department of Veterans 
  Affairs........................................................    52
    Prepared statement...........................................    53
    Response to prehearing questions submitted by Hon. Richard 
      Burr are merged in with same to DOD........................    13
    Response to posthearing questions submitted by:
      Hon. Patty Murray..........................................    33
      Hon. Richard Burr..........................................    47
      Hon. Bernard Sanders.......................................    56
    Response to request arising during the hearing by:
      Hon. Richard Burr..........................................    89
      Hon. Jon Tester............................................    92
      Hon. Patty Murray..........................................    98
Bertoni, Daniel, Director, Education, Workforce, and Income 
  Security, U.S. Government Accountability Office................    57
    Prepared statement...........................................    60
    Response to posthearing questions submitted by Hon. Bernard 
      Sanders....................................................    78
    Response to request arising during the hearing by Hon. Mike 
      Johanns....................................................    96
Interim Committee Staff Report: Investigation of Joint Disability 
  Evaluation System..............................................    79

                                APPENDIX

Paralyzed Veterans of America; prepared statement................   103


  SEAMLESS TRANSITION: REVIEW OF THE INTEGRATED DISABILITY EVALUATION 
                                 SYSTEM

                              ----------                              


                        WEDNESDAY, MAY 23, 2012

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m., in 
room SD-562, Dirksen Senate Office Building, Hon. Patty Murray, 
Chairman of the Committee, presiding.
    Present: Senators Murray, Tester, Burr, Johanns, and 
Boozman.

           STATEMENT OF HON. PATTY MURRAY, CHAIRMAN, 
                  U.S. SENATOR FROM WASHINGTON

    Chairman Murray. Good morning and welcome to today's 
hearing to examine the ongoing efforts of the Department of 
Defense and the Department of Veterans Affairs to provide a 
truly seamless transition for our servicemembers and our 
veterans.
    Almost a year ago today, this Committee held a hearing on 
VA and DOD efforts to improve transition. We explored a number 
of issues, including the Integrated Disability Evaluation 
System. At the hearing, we had an opportunity to hear from both 
Departments about the state of the joint program. The 
Departments' testimony that day spoke to how the Departments 
had created a more transparent, consistent, and expeditious 
disability evaluation process. Their testimony also states IDES 
is a fairer, faster process.
    Well, now that the joint system has been implemented 
nationwide, I have to say that I am far from convinced that the 
Departments have implemented a disability evaluation process 
that is truly transparent, consistent, or expeditious.
    There are now over 27,000 servicemembers involved in the 
disability evaluation system. As more and more men and women 
return from Afghanistan and as the military downsizes, we are 
going to see an even larger group of servicemembers transition 
from the military through the disability evaluation process.
    This process impacts every aspect of a servicemember's life 
while they transition out of the military, but it does not stop 
there. If the system does not work right, it can also 
negatively affect the servicemember and their family well after 
they have left active duty. Getting this right is a big 
challenge, but it is one that we have no choice but to step up 
to meet.
    I have seen the impacts of a broken system, whether it is 
from a wrong diagnosis, an improper decision, or never-ending 
wait times, and when the system does not work and 
servicemembers cannot get a proper mental health evaluation or 
diagnosis, it means they are not getting the care that they 
need. Without the proper care, these men and women may find 
themselves struggling to readjust to family or civilian life, 
and they often struggle to find work.
    Worse yet, we have heard stories of soldiers overdosing on 
drugs, and in far too many cases, taking their own lives. These 
are real tragedies affecting real servicemembers, and they are 
happening despite a system intended to provide greater support 
to our wounded, ill, and injured. I have seen first hand the 
impact an improper decision can have on a soldier and his 
family.
    Earlier this year, I met Sergeant First Class Stephen Davis 
and his wife, Kim, at Joint Base Lewis-McChord in my homestate 
of Washington. Sergeant Davis led his men in combat in both 
Iraq and Afghanistan. He was exposed to multiple IED explosions 
during his service, and after being treated by the Army for 
years for PTSD and other mental health disorders, he was told, 
during the disability evaluation process, that he was making up 
his ailments.
    From speaking with him, I can tell you that Sergeant Davis 
and the hundreds of other men and women at Joint Base Lewis-
McChord are far from satisfied with the transparency and 
consistency of the disability evaluation process. All of these 
men and women had been diagnosed with, and in many cases, were 
receiving treatment for PTSD during service.
    But then during the disability evaluation process, they 
were told they were exaggerating their symptoms, they were 
labeled as malingerers, and their behavioral health diagnoses 
were changed. Since then, the Army has launched investigations 
and hundreds of soldiers are now being reevaluated in an effort 
to make this right. In fact, the most recent update from the 
Army shows that out of the 196 cases that have been 
reevaluated, 108 have resulted in a diagnosis of PTSD. That is 
more than half of these men and women.
    Still more have received other significant behavioral 
health diagnoses. Other referrals and reevaluations are still 
occurring. I am still hearing from those who have completed 
their reevaluations only to find themselves stuck back in the 
same Disability Evaluation System that failed them.
    Despite all these men and women have been through, they 
continue to have their behavioral health injuries minimized and 
feel like their chain of command does not understand what they 
are going through. Clearly more needs to be done to build 
uniformity and accountability into the process of identifying 
those who are struggling with PTSD and other behavioral health 
problems.
    In recent weeks, the Army has taken a number of steps in 
the right direction. Their recent policy on the diagnosis and 
treatment of PTSD addresses a number of the concerns that I 
have raised. It standardizes the Army mental health care 
through the use of proven treatments and assessments, it 
recognizes how extraordinarily rare it is for servicemembers to 
fake symptoms of PTSD, and this acknowledgment is critical, as 
we saw all too often that accusation at Madigan Army Medical 
Center.
    Additionally, just last week, the Army took another 
critically important step forward in addressing the concerns I 
have been raising by announcing a comprehensive Army-wide 
review of behavioral health evaluations and diagnosis in 
support of the Disability Evaluation System. I want to applaud 
the Army leadership for taking some significant steps toward 
addressing these issues. This is going to take continued 
engagement from the Army leadership.
    Now, I know some may argue that this is just a Joint Base 
Lewis-McChord problem or an Army problem, but it is not. This 
is a systemwide problem. We will continue to see issues similar 
to those at Madigan until the DOD and VA ensure policies and 
actions, like those we have seen from the Army in recent weeks, 
are adopted across the services and throughout the joint 
system.
    Ensuring servicemembers receive a proper diagnosis in the 
care and benefits they earned is an obligation we have as a 
Nation. We owe it to these men and women to get this right.
    These are not the only challenges confronting the 
Integrated Disability Evaluation System. We are going to hear 
today from GAO about other challenges facing the Departments, 
challenges which I must say sound all too familiar. Everyone on 
this Committee knows of VA's struggles to address the claims' 
backlog.
    I am troubled because numbers from the Integrated 
Disability Evaluation System paint a similar picture. 
Enrollment continues to climb, the number of servicemembers' 
cases meeting the Departments' timeliness goals is unacceptably 
low, and the amount of time it takes to separate and provide 
benefits to a servicemember through this system has risen each 
year since its inception.
    This continued rise in the amount of time it takes to 
provide a servicemember with a decision has to be addressed. 
The goal the Departments have set for completing IDES is 295 
days for active duty and 305 days for reservists. Last year, on 
average, it took active duty servicemembers 394 days and 
reservists 420 days. That is around 100 days longer than your 
goal, and it is simply unacceptable.
    Dr. Rooney, Mr. Gingrich, right now the Departments are 
failing these servicemembers. The only thing this Committee is 
interested in are the solutions to this problem and the 
dedication of your leadership in making things better. We 
cannot allow the same problems that plague the larger 
disability claim system to negatively impact the transition of 
thousands of servicemembers in the next few years. The 
consequences are too severe.
    Clearly, a lot of work remains to be done. But we have seen 
the Army moving in the right direction. Now DOD and VA need to 
take these lessons learned and apply them across the entire 
system. Not only will this require quick action, but most 
importantly, this effort is going to require the total 
engagement, cooperation, and support of all senior leaders at 
both Departments to get this done right.
    While DOD and VA are at a critical juncture, I am confident 
that by working harder and smarter and faster, the Departments 
can improve the system for thousands of men and women who will 
be transitioning in the next couple of years. With that, I will 
turn to Senator Boozman.
    Ranking Member Burr was in another meeting and just joined 
us, so we will first turn to Senator Boozman for his statement.

                STATEMENT OF HON. JOHN BOOZMAN, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Thank you, Chairman Murray, and thank you 
and Senator Burr for holding this hearing to discuss the 
Integrated Disability Evaluation System, including how well it 
is working and what is being done to improve it. Also thank you 
to our witnesses for joining us today.
    As we will hear today, it is clear that the Integrated 
Disability Evaluation System, or IDES, is still facing real and 
significant challenges. Overall, it is taking more than 1 year 
for servicemembers to go through this process, about one third 
longer than the VA and the Department of Defense intended. At 
some military bases, it is still taking much longer than that. 
In fact, only 18 percent of active duty servicemembers are 
transitioning to civilian life within the agency's 295-day 
goal.
    During this time, wounded, ill, and injured servicemembers 
are waiting to find out whether they can continue serving in 
the military or have to build new lives as civilians. For those 
who are ready and able to move on with their lives, this must 
seem like an eternity.
    I think the number of servicemembers in this process who 
are administratively discharged or court martialed or died from 
unnatural causes, including suicides and overdoses, raises 
serious questions about what the impact these delays may be 
having on the personal well-being of our Nation's wounded 
warriors. Also, I think we need to consider whether the IDES is 
truly setting them up to succeed after leaving the military.
    As the Committee has been told by many servicemembers going 
through this process, the uncertainty about when and where they 
might leave the military can actually prevent them from getting 
their civilian lives in order, such as buying a house, finding 
a school, or taking a job.
    On top of that, it appears that this system is not as 
straightforward or user-friendly as it was intended. Listen to 
what the Wounded Warrior Project said about the IDES process 
earlier this year: ``Our wounded warriors still encounter great 
difficulty in navigating a system they find to be highly 
complicated, difficult to understand, unnecessarily 
contentious, and often ponderously slow.'' Other words that 
have been used to describe IDES include adversarial, long, and 
disjointed.
    There is another hidden liability here that I think is 
important to note and that is the potential impact that the 
backlog may have on our military readiness, particularly in a 
time when some in Washington are talking about drawing down our 
force strength. Right now there are about 19,000 soldiers, as 
in just in the Army, who are in this process. I am under the 
impression that these servicemembers are still considered as 
being in the military, so that comes out of the bottom line for 
Army's in-strength and cannot be replaced until they have 
completed the IDES process.
    Based on these and other issues we will hear about today, 
it is clear that we are still a long way from actually having 
created a seamless transition for many wounded, ill, and 
injured military personnel. So I hope the Committee will have a 
good discussion about what can be done to simplify this 
disability system, speed up the process for those who are ready 
to move on with their civilian lives. And with that, I yield 
back my time.
    Chairman Murray. Thank you very much. Senator Burr?

        STATEMENT OF HON. RICHARD BURR, RANKING MEMBER, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Madam Chairman, I just ask unanimous consent 
to put my statement in the record. Thank you.
    [The prepared statement of Senator Burr follows:]
        Prepared Statement of Hon. Richard Burr, Ranking Member
    Good morning, Chairman Murray. Welcome to you and to our witnesses. 
Thank you for calling this hearing to discuss the Integrated Disability 
Evaluation System--or IDES.
    This joint VA and Department of Defense process was meant to help 
ease the transition to civilian life for injured or ill servicemembers, 
by allowing them to find out before they leave the military what 
benefits they will receive from both agencies. But, as we'll hear 
today, there have been consistent performance challenges with this new 
system.
    In fact, at Committee hearings last May, we heard about inadequate 
IT solutions, staffing shortages, and other problems that were leading 
to delays and frustrations for many servicemembers. At that time, it 
was taking about 400 days to go through the process--100 days longer 
than the target set by the agencies. Also, serious concerns were raised 
about the personal toll those delays may be having on many 
servicemembers and about the quality of their lives during this 
process.
    We heard then about a number of efforts that were underway to 
improve IDES. But--one year later--we'll hear about some of those same 
problems, and it's still taking nearly 400 days for injured and ill 
servicemembers to transition to civilian life. For members of the Guard 
and Reserves, it can take even longer--as much as 650 days. That's a 
long time for servicemembers to be held in limbo--not knowing whether 
their military careers are over and, if so, what benefits and services 
they would receive.
    Also, we continue to hear from servicemembers who are frustrated 
that they cannot plan for civilian life--like accepting a job or 
enrolling in school--because they don't know when they will leave the 
military. What's worse is the number of servicemembers going through 
this process who have taken their own lives, succumb to drugs, or 
suffered other unfortunate outcomes.
    Given all of this, it's understandable that stakeholders have 
called this process convoluted, contentious, and slow. Even the Army's 
Deputy Chief of Staff recently said this about it (quote):

        The biggest area that we need help is the Disability Evaluation 
        System. It's fundamentally flawed. It causes an adversarial 
        relationship with our medical professionals * * *. It's long. 
        It's disjointed * * *.

    The bottom line is that many servicemembers and their families are 
not being well served by this process. So, we need to look at what 
should be done in the short term to bring relief to the 27,000 military 
personnel going through IDES now. But, we also need to seriously look 
at whether this system--as currently structured--will ever provide 
servicemembers with the high level of service they deserve.
    Madam Chairman, we should not be content with a cumbersome process 
that leaves injured and ill servicemembers in a state of uncertainty 
for more than a year, when they want and need to move on with their 
lives. The men and women who have been harmed while serving our Nation 
deserve better. So, I hope we can work collectively to find solutions 
that will cut through the bureaucracy and, more importantly, will truly 
help ease their transition to civilian life.

    I again thank the witnesses for being here, and I thank the Chair.

    Chairman Murray. Thank you very much. At this time, I want 
to--oh, Senator Tester, I did not see you come in.
    Senator Tester. Thanks.
    Chairman Murray. You are welcome.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. I would just like to say thank you, Dr. 
Rooney, for being here, and Mr. Gingrich, and Mr. Bertoni. I 
would just say that since I have been on this Committee, which 
has been five-and-a-half years now, we have been talking about 
this issue. Obviously it is not an easy issue or it would be 
done already.
    By the same token, maybe we ought to get the Committee on 
Military Affairs in here, but you are here, Dr. Rooney, but to 
put pressure on the DOD to make sure they are doing their job 
as we put pressure on the VA to make sure they are doing their 
job. Let me just give you a real quick statistic.
    Secretary Shinseki mentioned that his goal for the 
disability compensation and pension claims is 125 days, 98 
percent accuracy. Right now, according to the report Mr. 
Bertoni put out, it is 394 days and it is 79 percent accurate. 
We have got an issue here, and the reason I know we have got an 
issue here is because I have got veterans calling me all the 
time. It is too complicated, they do not know how to get 
through it, and quite frankly, the folks who serve this country 
deserve better.
    We have got to figure out how to get this right, and I do 
not think IDES is doing it right now, but I could be corrected 
on that and I look forward to that if you do correct me, 
because the bottom line is, what this Committee does is 
important, but what is even more important is the services we 
give to our vets and the folks that need help and have earned 
that help need to get it and need to get it now. Thank you, 
Madam Chair.
    Chairman Murray. OK. Thank you very much. Now, at this 
time, I would like to introduce and welcome today's witnesses. 
Representing the Department of Defense is the Acting Under 
Secretary of Defense for Personnel and Readiness, Dr. Jo Ann 
Rooney. Dr. Rooney, we had the chance to talk about several of 
these issues at the field hearing I held in Tacoma a few months 
ago, and I really appreciate your willingness to testify before 
this Committee again, and I am pleased you are continuing to 
focus on this issue.
    Joining us from the Department of Veterans Affairs is VA's 
Chief of Staff, Mr. John Gingrich. From the Government 
Accountability Office, we have Mr. Daniel Bertoni, the Director 
of Education, Workforce, and Income Security Issues. I want to 
thank each one of you for joining us this morning and we look 
forward to hearing your testimony. Your prepared remarks will, 
of course, appear in the record. Dr. Rooney, we will begin with 
you.

 STATEMENT OF JO ANN ROONEY, ACTING UNDER SECRETARY OF DEFENSE 
       FOR PERSONNEL AND READINESS, DEPARTMENT OF DEFENSE

    Ms. Rooney. Thank you. Good morning, Chairman Murray, 
Ranking Member Burr, and Members of the Committee. It is my 
pleasure to be here today to testify on current efforts focused 
on reviewing and improving the Integrated Disability Evaluation 
System, or IDES. I am pleased to be appearing with one of my 
partners from the Department of Veterans Affairs.
    As Departments, we are working closely together to provide 
an integrated, seamless process for wounded, ill, or injured 
servicemembers as they transition to veteran status. Taking 
care of our servicemembers is the absolute highest priority of 
the Department of Defense. Part of taking care of our 
servicemembers includes ensuring their honorable service is 
recognized and they are compensated in both DOD and VA systems 
for injuries and illnesses incurred during that service.
    The Department has undertaken many initiatives to 
accomplish this, but we acknowledge there is much more work to 
be done. Over the past 5 years, the Departments of Defense and 
Veterans Affairs have worked together with assistance and 
guidance from Congress to reform the cumbersome and often 
confusing bureaucratic processes which provide care and 
benefits to our wounded, ill, and injured servicemembers when 
and where they need them.
    Working closely, deliberately, and collaboratively, our 
Departments have established governance at the highest levels 
to facilitate continuous improvements. The Joint Executive 
Council, or JEC, co-chaired by the VA Deputy Secretary Gould 
and me, devotes part of each bimonthly meeting to reviewing the 
progress and understanding the ongoing actions toward achieving 
our goal of seamless transition from servicemembers to 
veterans.
    Similarly, the quarterly meeting conducted jointly by the 
Secretary of Defense and the Secretary of Veterans Affairs, 
with their senior leaders, to oversee and drive progress toward 
the stated goals. One of these efforts is IDES. IDES delivers a 
more servicemember-centric design, a simpler process, more 
consistent evaluations, and compensation, easier transition to 
veteran status, case management advocacy, and an established 
relationship between the servicemember and VA prior to 
separation.
    It also provides increased transparency through better 
information flow to servicemembers and their families as well 
as a reduced gap between separation, or retirement from 
service, and receipt of VA benefits.
    The IDEA streamlines the Disability Evaluation System with 
servicemembers receiving a single set of physical disability 
examinations conducted according to VA examination protocols, 
proposed disability ratings prepared by VA that both 
Departments can use, and dual processing to ensure the earliest 
possible delivery of disability benefits.
    Currently the IDES is in use at 139 locations across all 
services. Since November 2007, 19,518 servicemembers have 
completed the IDES process. The IDES has also reduced that 
post-separation benefits gap between DOD and VA from an average 
of 240 days in 2007 to 50 days currently, which means disabled 
veterans receive their VA benefits 79 percent faster under the 
current IDES than before.
    Even with the marked improvements in performance the IDES 
has brought to the disability evaluation process, we have much 
work remaining. Both Departments are committed to constant 
evaluation of each step throughout the process and will 
continue to seek long-term innovative solutions focused on 
improving the experience of our wounded warriors. We must do 
that.
    We also much carefully review the critical steps in IDES to 
reach the 295-day completion goal for at least 60 percent of 
those entering the process by the end of this calendar year. 
The military services are each in the process of implementing 
actions to improve efficiency and effectiveness. Since October 
2011, this fall, the Army has added 513 medical evaluation 
board and physical evaluation board personnel and enhanced 
accountability by establishing performance metrics to measure 
the productivity of board staff.
    The Army has also completed a senior leader assessment of 
the execution of the IDES at installations across the Army. 
This assessment identified specific actions required to enhance 
and standardize performance across the Army. The Navy and 
Marine Corps have added ten doctors and 37 case managers to 
their medical evaluation board staff last year and anticipate 
the addition of 23 more doctors next year.
    Physical evaluation board staffs have increased in both 
Navy and Marine Corps by 47 percent, allowing them to process 
75 percent of the Navy and 69 percent of the Marine cases 
through this particular phase in less than the 120-day phase 
goal. The Air Force has also leaned forward and started to 
utilize Air Force National Guard personnel to support the 
evaluation process and established a pre-IDES eligibility 
screening process, again to increase efficiency.
    The Office of the Secretary of Defense has also removed 
policy impediments, implemented procedural improvements, and 
enhanced oversight and assistance to the services. Examples of 
these include reducing minimum informal physical evaluation 
board staffing requirements from three members to two members, 
authorizing doctoral level psychologists to sign medical 
evaluation boards. Prior they were not able to.
    Allowing military departments to process initial trainees 
through the Legacy system. Additionally, DOD is working with 
our VA partners to improve IDES execution by improving training 
and case management software, implementing a common paperless 
standard for electronic transfer of files by this summer, and 
developing other integrated electronic record file sharing 
methods which will enhance the efficiency of the IDES.
    The Departments anticipate these improvements when 
implemented this summer of 2012 will reduce IDES time, on 
average, by 20 to 30 days. The Departments are committed to 
ensuring that disability evaluation and compensation of 
injured, ill, and wounded servicemembers is thorough, fair, and 
accurate.
    We are continually reviewing the process and the 
requirements to adequately staff, and when necessary, surge the 
IDES so it remains responsive to the needs of recovering 
servicemembers in the services as they draw down and reset 
their forces. Yet we understand there is room for improvement 
in all parts of our processes and are committed to working 
toward that end.
    After two decades of war with an all-volunteer force that 
has seen marked improvements in survival of previously 
unsurvivable combat injuries, the expectations of what happens 
after a servicemember becomes ill or injured are fundamentally 
different. The Department is now focused on taking advantage of 
all the advances in medical care, restorative therapies, and 
rehabilitation to allow a servicemember to achieve his or her 
greatest potential.
    This includes retention in military service whenever 
possible. This concept of being made whole reflects a 
commitment to the servicemembers to restore the highest level 
of function possible physically, mentally, spiritually, and 
financially and providing all the benefits that are justified.
    The target of 295 days to complete the IDES process was 
originally identified to address the concerns and frustrations 
of servicemembers who did not believe they were being properly 
cared for and felt they were languishing in an uncoordinated, 
insensitive system. Since these issues surfaced, many resources 
have been brought to bear to improve the coordination and care 
and the adjudication of benefits.
    The complexity of injuries, sophisticated treatment 
strategies, coordination of care, and change in the 
philosophical approach to the goals of patient-centric versus 
military department-centric has redefined the timeliness for 
completion of the system. In fact, it has become more of a 
system centered on improving and defining ability rather than 
singularly focused on transition of a servicemember to veteran 
status and is often individualized in its application to 
achieve this goal.
    The Department reaffirms its commitment to care for and 
honor those who have protected our Nation by serving in 
uniform. In order to meet our sacred responsibilities to this 
next greatest generation, we must fully leverage the 
capabilities and strategies and strengths of both the 
Department of Defense and Veterans Affairs. We must break down 
the barriers that prevent us from delivering the highest 
quality care to those who need it and deserve it.
    Thank you again for the opportunity to be with you today, 
Madam Chairman, and I look forward to the Committee's 
questions.
    [The prepared statement of Ms. Rooney follows:]

  Prepared Statement of Dr. Jo Ann Rooney, Acting Under Secretary of 
      Defense, Personnel and Readiness, U.S. Department of Defense

    Chairman Murray, Ranking Member Burr, and Members of the Committee: 
Thank you for inviting me to testify before you on the current status 
of the Integrated Disability Evaluation System (IDES) and current 
efforts to improve it.
    The 2007 revelations regarding suboptimum conditions for wounded 
warriors at Walter Reed Army Medical Center made for a stark wakeup 
call. In the nearly five years since, the Department of Defense (DOD) 
has worked in tandem with our Department of Veterans Affairs (VA) 
colleagues to improve policies, procedures, and conditions that impact 
care of our wounded warriors. Today, we meet at a time of historic 
cooperation between the Departments of Defense and Veterans Affairs. 
Thanks to President Obama's commitment to Veterans and delivering the 
care they have earned, we have established a program of support between 
our Departments that is more responsive and comprehensive in scope than 
ever before. More so than at any time in our Nation's history, those 
who separate from military service are greeted by more comprehensive 
mental and physical care; by greater opportunity for education and 
jobs, and by a deeper societal commitment to ensuring their welfare. 
When you compare the experience of our troops today to the generation 
of heroes who returned from Vietnam, the progress made toward a single 
system of lifetime care is significant, yet we must continue to make 
improvements.

                               BACKGROUND

    After the Career Compensation Act of 1949 created the basic 
structure of the Department's Disability Evaluation System (DES), it 
remained relatively unchanged until November 2007. In response to 
public and Congressional concern after reports of inadequate conditions 
for wounded warriors at Walter Reed, the joint DOD and VA Senior 
Oversight Committee (SOC) chartered a pilot designed to create a more 
Servicemember-centric, seamless, and transparent disability program. 
The DES Pilot implemented many of the changes recommended by groups 
like the Veterans' Disability Benefits Commission and the President's 
Commission on Care for America's Returning Wounded Warriors to the 
degree allowed within law.
    The pilot was launched at three major military medical treatment 
facilities in the National Capital Region on November 21, 2007--Walter 
Reed Army Medical Center, National Naval Medical Center, Bethesda, and 
Malcolm Grow Air Force Medical Center. It successfully created an 
integrated process that delivers Departments of Defense and Veterans 
Affairs benefits as soon as possible following release from active duty 
and significantly reduced the gap in benefits that existed in the 
previous system. DOD found the DES Pilot to be faster, more equitable, 
and more efficient than previous approaches. In a representative survey 
of over 1,000 Servicemembers, those in the DES Pilot were more 
satisfied with their experience than those in the legacy process. As a 
result, in July 2010, the Deputy Secretaries of Defense and Veterans 
Affairs directed worldwide implementation to begin in October 2010, and 
to be completed by September 2011. On December 31, 2010, the DES Pilot 
officially ended and the first Integrated Disability Evaluation System 
(IDES) site became fully operational.
    The IDES, similar to the DES Pilot, streamlines the disability 
process so Servicemembers receive a single set of physical disability 
examinations conducted according to VA examination protocols and 
disability ratings prepared by VA. The Departments of Defense and 
Veterans Affairs share the examination results and ratings to relieve 
Servicemembers of the burden of redundant examination requirements and 
divergent ratings for the same disability. Under Title 10 authority, 
the Department determines fitness for duty and compensates for 
unfitting conditions incurred in the line of duty, while under Title 38 
authority VA compensates for all disabilities resulting from disease or 
injury incurred or aggravated in line of duty during active military, 
naval, or air service for which a disability rating of 10 percent or 
higher is awarded. It also determines eligibility for other VA benefits 
and services. The IDES permits both Departments to provide disability 
benefits at the earliest point allowed under their respective U.S.C. 
Titles. In March 2012, the post-separation wait for VA disability 
benefits was 79% shorter than in 2007 under the separate DOD/VA 
processes.
    The National Defense Authorization Act (NDAA) for FY 2008, Public 
Law 110-181, required DOD to utilize the VA Schedule for Rating 
Disabilities (VASRD). The Departments of Defense and Veterans Affairs 
are currently developing a memorandum of understanding that will allow 
DOD to become a member of the working groups updating the VASRD and 
give DOD the opportunity to make recommendations prior to the 
publication of proposed changes in the Federal Register. The 
Department's ability to provide this input is critical given the direct 
connection between VASRD ratings and the decision to place 
Servicemembers on the medical retirement list with annuities, benefits, 
and healthcare. This issue is being evaluated by the Benefits Executive 
Council, which is a joint DOD/VA forum, and anticipates completion over 
the next several months.
    In summary, IDES delivers a more Servicemember-centric design, a 
simpler process, more consistent evaluations and compensation, easier 
transition to Veteran status, case management advocacy, and an 
established relationship between the Servicemember and VA prior to 
separation. It also provides increased transparency through better 
information flow to Servicemembers and their families and a reduced gap 
between separation or retirement from service to receipt of VA 
benefits.

                                CASELOAD

    The Department evaluated 18,393 Servicemembers for disability 
during 2011, 22% more than in 2001. More than 50% of the Servicemembers 
evaluated for disability in 2011 completed the legacy DES process. 
Today, fewer than 2,000 Servicemembers remain in that legacy process. 
The Department is rapidly completing the evaluation of these legacy 
cases and will be complete with a small number of exceptions by 
September 2012.
    As the number of Servicemembers in the independent legacy process 
has declined, the number of Servicemembers in IDES has grown. Since 
November 2007, 49,478 Servicemembers have entered and 19,518 have 
completed the IDES, 2,589 members did not complete the IDES process due 
to a host of reasons including death, disenrollment, or return to 
active duty. As of early this month, 27,371 Servicemembers were in the 
IDES (67 percent Army, 12 percent Marines, 9 percent Navy, and 12 
percent Air Force). Two decades of war has contributed to the 
Department's disability case load and many of these ill and injured 
suffer from complex conditions which take time to properly diagnose and 
evaluate. We anticipate the number of Servicemembers in the IDES will 
continue to grow as members return from Afghanistan and the Services 
reduce their end strength.
    We are concerned about the IDES performance, both in terms of the 
quality of service provided and time it takes to complete the process, 
the Department is mindful that disability evaluation has a dual 
purpose. The first purpose is to ensure our Nation maintains a fit 
fighting force. The second is to compensate disabled Servicemembers and 
recognize their honorable service. The Department also understands that 
before we evaluate a Servicemember for possible separation from 
service, we must also ensure we provide them the best medical treatment 
and consider them for other duties that allow continued service to 
their country. Both of these factors affect the time required to 
complete the IDES process to ensure we provide due diligence and 
process to every Servicemember. It is the Department's strong 
conviction that we must not simply expedite the process at the expense 
of eroding these basic tenets. However, we must ensure the process is 
as efficient as possible. The Department is committed to ensuring the 
disability evaluation and compensation of injured, ill, and wounded 
Servicemembers is thorough, fair, and accurate. We are continually 
reviewing the process and the requirements to adequately staff, and 
when necessary, surge the IDES so it remains responsive to the needs of 
recovering Servicemembers and the Services as they draw-down and reset 
their forces.

                          CURRENT PERFORMANCE

    Prior to the IDES, the Departments of Defense and Veterans Affairs 
used separate disability evaluation processes which resulted in long 
wait times within each department. In addition, in 2007, the 
Departments of Defense and Veterans Affairs estimated disabled Veterans 
faced a 240-day gap between exiting military service and receiving full 
VA benefits. By March 2012, the IDES enabled the Departments of Defense 
and Veterans Affairs reduce the post-separation benefits gap from an 
average of 240 days in 2007 to 50 days, which means disabled Veterans 
received their VA benefits 79% faster under the IDES than before.
    Active component Servicemembers averaged 395 days in the IDES in 
March 2012. Approximately 80 days of this time consisted of 
Servicemembers in transition--clearing their installation and taking 
voluntary earned leave prior to separating from military service. 
Voluntary leave and clearing the barracks are distinct efforts from 
disability processing and vary significantly by individual. Therefore, 
the Department is evaluating whether this transition time should be 
excluded as part of the IDES time measurement metric. The Department is 
committed to constant evaluation of all our processes and will continue 
to seek long-term innovative solutions focused on improving the 
experience of our wounded warriors. Although the Department is not 
currently meeting the IDES processing time goal, we are focusing on the 
following action areas to close the 100-day gap.
    Staffing. The Services are applying surge manpower where needed. 
The Army has hired 1,218 out of 1,400 additional civilians (87% 
complete) to staff the IDES in anticipation of current caseload and 
future spikes in the IDES utilization. The Department of the Navy added 
staff at Camp Lejeune and reduced cases experiencing time delays by 21% 
in one month. The Department of the Navy also increased its Informal 
Physical Evaluation Board (IPEB) staffing by 47%, which reduced IPEB 
processing time from 50 days in January to 11 days in March 2012, well 
within the goal of 15 days. The Department of the Air Force is 
currently reviewing staffing requirements for their physical evaluation 
board.
    Leadership. The Services and VA leaders meet regularly (both inter-
agency and intra-agency) to ensure they oversee and drive progress 
within their organizations. There are several examples of this 
coordination. The first is the bi-monthly Joint Executive Council (JEC) 
chaired by the Deputy Secretary of Veterans Affairs and Under Secretary 
of Defense for Personnel & Readiness. The second includes monthly 
reports of the IDES performance provided to the Secretaries of Defense 
and Veterans Affairs and reviewed at each JEC. The third is the ability 
of the Services to provide examinations of each installation including 
the performance of individual cohorts and identify under-performing 
situations. The fourth is the focus Deputy of Defense Management Action 
Group (DMAG) meeting, attended by senior military and civilian leaders 
from across DOD. The DMAG agenda for the summer of 2012 includes a 
detailed review of the IDES program. The Department is in the beginning 
stages of exploring strategic reforms to the process. The Department 
appreciates the Committee's support, and looks forward to working with 
the Congress as we continue to improve IDES.

                       A LOOK TOWARDS THE FUTURE

    In past wars, particularly with a conscripted force, it was 
expected that seriously injured or ill Servicemembers would transition 
to veteran status and receive long-term care through VA. This concept 
was generally accepted by all stake holders including lawmakers, 
military leadership, Servicemembers, and society.
    After two decades of war with an all-volunteer force that has seen 
marked improvements in survival of previously un-survivable combat 
injuries, the expectations of what happens after a Servicemember 
becomes ill or injured are fundamentally different. The Department is 
now focused on taking advantage of all the advances in medical care, 
restorative therapies, and rehabilitation to allow a Servicemember to 
achieve his or her greatest potential. This includes retention in 
military service when possible. This concept of being made ``whole'' 
reflects a commitment to the Servicemember to restore the highest level 
of function possible--physically, mentally, spiritually, and 
financially--and providing all benefits that are justified. We now have 
many Servicemembers, some of whom are blind, have spinal cord injuries, 
or have lost limbs serving proudly on active duty.
    This strong commitment to rehabilitation and continued productive 
service in the military by ill and injured Servicemembers, many with 
more complex visible and invisible wounds then previously seen, has 
lengthened treatment and rehabilitation strategies and the time 
retained on active duty while recovering. It has also created a new 
mind-set for the injured Servicemember. Today there is a focus on 
attaining maximum functional ability before a decision is made to 
remain in or separate from active duty. Lawmakers and senior military 
leaders have endorsed this philosophy and Servicemembers embrace this 
change, driven by the desire to remain in active service because it is 
their chosen career.
    The target of 295 days to complete the IDES process was originally 
identified to address the concerns and frustrations of Servicemembers 
who did not believe they were being cared for properly and felt they 
were languishing in an uncoordinated, insensitive system. Since these 
issues surfaced, many resources have been brought to bear to improve 
the coordination of care and the adjudication of benefits. 
Specifically, Wounded Warrior Regiments and Wounded Warrior Battalions 
have been established along with other efforts to group, coordinate and 
focus optimized care and recovery for the Servicemembers and provide 
for families. In addition, much attention and unprecedented resources 
have focused on addressing the invisible wounds of war--PTSD, TBI and 
Behavioral Health issues--largely ignored in previous conflicts; 
illnesses which often complicate recovery from other injuries. The 
complexity of injuries, sophisticated treatment strategies, 
coordination of care and change in the philosophical approach to the 
goals of patient centric vs. military department centric care has 
redefined the timelines for completion of the disability evaluation 
system. In fact, it has become more of a ``system'' centered on 
improving and defining ``ability'' rather than singularly focused on 
transition of the Servicemember to veteran status and is often 
individualized in its application to achieve this goal. The current 
philosophical commitment to make the Servicemember ``whole'' and give 
them opportunities to remain in service is now coming in conflict with 
rigid timelines and legacy policies and procedures. As we look to long-
term strategic reform being satisfied that we have achieved maximum 
efficiencies in the current IDES, it may be appropriate to focus on 
developing metrics which consider the number of days along with desired 
outcomes that measure how the system serves the overall needs of 
wounded warriors and the contemporary military.

                               CONCLUSION

    While the Department supports the level of effort and progress 
made, we fully acknowledge there is much more to do. The Department has 
positioned itself to implement improvements and continue progress in 
providing support to our Servicemembers, veterans, and their families 
while supporting recovery, rehabilitation, and re-integration. Our 
dedicated Servicemembers, veterans, and their families deserve the very 
best. We pledge to give our best efforts to supporting their recovery, 
rehabilitation, and return to their communities.
                                 ______
                                 
Response to Prehearing Questions Submitted by Hon. Richard Burr to DOD, 
Office of Wounded Warrior Care and Transition Policy and VA, Office of 
      Policy and Planning, Integrated Disability Evaluation System

    (a) The number of servicemembers expected to enter the IDES process 
per year at each site.
    DOD Response. See attached spreadsheet, WWCTP SVAC Response Data, 
column header, ``Expected Referrals per year (a).''

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Notes:
    (1) Expected referrals per year based on medical evaluation boards 
the Military Departments reported in fiscal year 2011.
    (2) Department of the Navy data represents combined referrals for 
Navy and Marine Corps servicemembers.
    (3) Referral data for Walter Reed National Military Medical Center 
includes referrals from Ft. Belvoir and Ft. Meade.
    (b) For each site, the total current staffing level for Physical 
Evaluation Board Liaison Officers (PEBLOs) and the ratio of PEBLOs to 
servicemembers.
    DOD Response. See attached PEBLO ratio spreadsheet for ratio of 
PEBLOs to servicemembers.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Services reported staffing for each location based upon the 
following:

          PEBLO Case ratio is defined as the number of trained PEBLO 
        full-time-equivalent (FTE) staff divided by 100/365 (.27) 
        multiplied by the total number of new cases (to be defined by 
        the Military Department) at the location per year.

          (# of PEBLOs)  [(.27)  (# of MEBs per year)] = Current 
        PEBLO Ratio
    (c) For each site, the total current staffing level for Military 
Service Coordinators (MSCs) and the ratio of MSCs to servicemembers.
    DOD/VA Response. The attached spreadsheet, ``IDES Sites VA MSC-VSR 
Staff Levels,'' is the list of IDES Sites and respective military 
services coordinator caseloads. Monthly volumes at IDES sites range 
from less than 1 per month to a high of nearly 150 cases. VBA supports 
low-volume sites with part-time staffing.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    (d) The length of time, on average, servicemembers have been 
pending in the IDES process at each site.
    DOD Response. See WWCTP SVAC Response Data (response to question 
(a)), column header, ``Average Time Pending (d).''

    (e) The number of individuals who have been pending in the IDES 
process for longer than 295 days at each site.
    DOD Response. See WWCTP SVAC Response Data (response to question 
(a)), column header, ``# Cases Pending > 295 Days (e).''

    (f) The number of individuals who have been pending in the IDES 
process for longer than 540 days at each site.
    DOD Response. See WWCTP SVAC Response Data (response to question 
(a)), column header, ``# Cases Pending > 540 days (f).''

    (g) The total number of individuals who have completed the IDES 
process at each site.
    DOD Response. See WWCTP SVAC Response Data (response to question 
(a)), column header, ``# Cases Completed VA Benefits (g).''

    (h) The number of individuals from each site who completed the IDES 
process and were placed on the permanent disability retirement list.
    DOD Response. See WWCTP SVAC Response Data (response to question 
(a)), column header, ``# PDRL Cases (h).''

    (i) The number of individuals from each site who completed the 
process and were placed on the temporary disability retirement list.
    DOD Response. See WWCTP SVAC Response Data (response to question 
(a)), column header, ``# TDRL Cases (i).''

    (j) The number of individuals from each site who completed the 
process and were separated with severance pay.
    DOD Response. See WWCTP SVAC Response Data (response to question 
(a)), column header, ``# Separated with Severance (j).''

    (k) The total number of individuals from each site who have been 
removed from the IDES process.
    DOD Response. See WWCTP SVAC Response Data (response to question 
(a)), column header, ``# Cases Removed from IDES (k).''

    (l) The number of individuals from each site who were removed from 
the IDES process and received an Administrative Discharge after court 
martial.
    DOD Response. See WWCTP SVAC Response Data (response to question 
(a)), column header, ``# Court Martial (l).''

    (m) The number of individuals from each site who were removed from 
the IDES process and received an Administrative Discharge (excluding 
court martial).
    DOD Response. See WWCTP SVAC Response Data (response to question 
(a)), ``# Admin Removed excluding Court Martial (m).''
    (n) The number of individuals from each site who have died during 
the IDES process and the causes of their deaths.
    DOD Response. See WWCTP SVAC Response Data (response to question 
(a)), column header, ``# Deceased (n).'' For detailed information about 
causes of death, see the following chart from Office of Wounded Warrior 
Care Transition Policy.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    (o) The number of individuals in the IDES process at each site who 
were returned to duty.
    DOD Response. See WWCTP SVAC Response Data (response to question 
(a)), column header, ``# Cases RTD (o).''

    (p) Of the individuals who were returned to duty at each site, the 
number who underwent medical examinations provided by the Department of 
Veterans Affairs (or its contractors) prior to being returned to duty 
and the total number of examinations that were provided for those 
individuals.
    DOD Response. See WWCTP SVAC Response Data (response to question 
(a)), column header, ``# Cases RTD after Exam (p1).''
    Note: This column contains the number of cases that were returned 
to duty after receiving IDES exams. DOD was not able to subtract the 
number of cases in which DOD performed the exam and also notes that DOD 
used these exams in their process to determine fitness for duty.
    WWCTP SVAC Response Data, column header, ``# Cases with Exams Used 
by DOD But Not for VA Benefits (p2)'' contains the number of cases with 
exams that were used by DOD but not usable to determine eligibility for 
VA benefits.
    DOD suggests the SVAC staff query VA to determine the total number 
of compensation and pension exams provided by the Department of 
Veterans Affairs (or its contractors) prior to Servicemembers being 
returned to duty.

    VA Response. The cumulative enrollment of Servicemembers in IDES 
since November 2007 is 50,021. The total number returned to duty (RTD) 
who also had examinations is 3,270. *The average number of examinations 
provided by VA for Servicemember returned to duty is four (3,270 x 4 = 
13,080) (*sentence added by WWCTP).
    The overall percentage of Servicemembers returned to duty who also 
had examinations is 6.5 percent. The attached spreadsheet, ``VA 
Analysis of Servicemembers Returned-to-Duty After VA Medical Exams 
since IOC,'' provides the RTD requested information by site.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    (q) The funding level for the IDES process for each site, including 
funds that will be provided from any source.
    DOD Response. DOD will provide the requested budget execution 
information as soon as possible. DOD is not able to provide the 
information at this time because the Department does not fund 
disability costs from a single program and collecting the information 
requires an extensive data call to the Military Departments. In the 
interim, the attached funding data was submitted as part of the FY 2013 
President's Budget request. In addition, the attached spreadsheet 
includes the Services estimated FY 2013 funding requirements that were 
requested within the Overseas Contingency Operations budget request. 
The Department is developing a future budget exhibit to provide this 
information annually.
    Note: The DOD answer is pending final review by OSD Comptroller 
office.
    VA Response. In FY 2012, VA will spend approximately $70.8 million 
in support of the IDES process. This figure is comprised of $18.2 
million for IDES exams through the Veterans Health Administration, 
$38.6 million for General Operating Expenditures which includes payroll 
(salary and benefits), travel, equipment and supplies, etc., and $14 
million on contract exams through VBA.

                       IDES Funding for Services

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Patty Murray to Jo 
    Ann Rooney, Acting Under Secretary of Defense for Personnel and 
 Readiness, U.S. Department of Defense and John R. Gingrich, Chief of 
               Staff, U.S. Department of Veterans Affairs
    Question 1. In 2010, GAO identified the issue of diagnostic 
disagreement within the Integrated Disability Evaluation System (IDES) 
in their report GA0-11-69, Military and Veterans Disability System. 
Recommendation 2 of GA0-11-69 recommended that the Secretaries of the 
Departments of Defense (DOD) and Veterans Affairs (VA) ``establish a 
mechanism to continuously monitor disagreements about diagnoses between 
military physicians and VA examiners and between PEBs and VA rating 
offices.'' In response to this finding:

    a. Has DOD and VA modified the VA's Veterans Tracking Application 
(VTA) to continuously monitor diagnostic disagreements?
    VA Response. VTA has now been modified to include a Quality Review 
Tab. The Physical Evaluation Board (PEB) can use this tab to identify a 
diagnostic variance.
    DOD Response. Yes, VA provides IDES IT support and recently 
modified VT A to incorporate a diagnostic difference monitoring 
capability.

    b. When will this modification be available to all VTA users?
    VA Response. This modification was made available to all VTA users 
on June 11, 2012.
    DOD Response. VA made this VTA modification available to all IDES 
users on June 9, 2012.

    c. How will VTA users be instructed to utilize this capability to 
capture data on diagnostic disagreements?
    VA Response. VTA users have been instructed via monthly VTA live 
meeting training to utilize this capability to identify data in cases 
that have diagnostic disagreements. VTA reporting capability to track 
and monitor diagnostic disagreements has not been developed at this 
time.
    DOD Response. The Military Departments received familiarization 
with the VTA 2.0 enhanced capabilities during pre-release user 
acceptance testing. We and our VA partners continue to conduct monthly 
training for PEBLO's to address basic and advanced/detailed 
capabilities, such as Quality Review, which includes Diagnostic 
Disagreement. We continue to improve our training materials through the 
VT A web site and recurrent training teleconferences.

    Question 2. Provide DOD, VA and any individual Service policy 
guidance that addresses the handling of diagnostic disagreements 
between DOD and VA.
    VA Response. The process of addressing the issue of diagnostic 
differences needs to include a definitive determination that there is 
in fact an issue with significant impact to the disability process. The 
Government Accountability Office (GAO) in 2010 noted that the 
occurrence and prevalence of diagnostic disagreements and their impact 
on IDES case processing time are unknown because DOD and VA have no way 
to track such disagreements. Following a period of discussion, DOD 
engaged the contractor LMI to study claims of diagnostic disagreements 
(aka diagnostic difference); LMI issued a report in October 2011.

    a. LMI confirmed that diagnostic disagreements are not tracked by 
any DOD or VA system or reporting process. Because they are not 
tracked, they were unable to quantify the prevalence of diagnostic 
disagreements and their effect on timeliness within IDES.
    b. LMI concluded that generally (1) the issue of diagnostic 
disagreements is almost completely confined to behavioral and mental 
health conditions and (2) improved coordination between the VA and DOD 
has significantly reduced the number of disagreements.

    While VA has no written policy guidance regarding diagnostic 
discrepancies for disability evaluations, VA has no objection to such a 
policy once it is established what barriers may exist in executing 
acceptable disability examinations. Meanwhile, opportunities to enhance 
DOD/VA communications are available. For example, if the examiner is 
aware that there is treatment history in the service medical record, 
he/she should request the Military Services Coordination to have it 
provided to him/her. If the Medical Evaluation Board (MEB) clinician 
determines that a diagnostic discrepancy exists, then the most 
efficient way to manage this is for the MEB clinician to phone the VA 
mental health disability examiner and provide the additional 
information. This is the same methodology utilized to address a 
diagnostic discrepancy in the therapeutic arena, clinician-to-clinician 
follow-up.

    DOD Response. DOD issued policy guidance on handling diagnostic 
disagreements in December 20 II (http://www.dtic.rniVwhs/directives/
corres/pdf/DTM-11-0l5.pdf). An excerpt of DOD's guidance, which 
instructs Military Department Physical Evaluation Boards to apply the 
diagnostic codes VA provides if the diagnoses differ between the 
Departments, follows:

        ``b. Within 15 days of receiving proposed disability ratings 
        from the D-RAS, apply the ratings using the diagnostic code(s) 
        provided by the D-RAS to the Servicemember's unfitting 
        conditions and publish the disposition recommendation. For 
        example, if the PEB identifies a condition to the D-RAS as 
        schizophreniform disorder but the D-RAS rates the condition as 
        psychotic disorder not otherwise specified (VASRD 9210), the 
        PEB will apply the rating as ``schizophreniform disorder rated 
        as psychotic disorder not otherwise specified (VASRD 9210).''

    Question 3. Please provide an organizational chart for the 
management of IDES within DOD, VA and within each Service.
    VA Response. Note attached Operational Model Diagram. 

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Question 4. In their March, 2012, briefing to the Committee, the 
Departments reported, in part: Deputy Chief Management Office (DCMO)--
is the single DOD POC for IDES Information Technology (IT); leading 
efforts to define IT strategy, discover and map IT portfolio and lead 
collaboration with VA.
    VA Executive Director Virtual Lifetime Electronic Record (VLER) 
EPMO identified as VA POC for IDES Information Technology. Please 
detail the collaboration between DOD and VA POCs, including:

    a. A delineation of the Departments' shared strategic goals, 
assumptions and planning for IDES IT collaboration;
    VA Response. VA's VLER Enterprise Program Management Office (EPMO) 
works closely with DOD Deputy Chief Management Office (DCMO) and the 
Under Secretary of Defense for Personnel and Readiness (USD (P&R)) to 
delineate shared strategic goals, assumptions and planning for IDES IT 
collaboration as part of ongoing governance activities and 
documentation created under the Joint Executive Council (JEC), Benefits 
Executive Council (BEC), VLER Overarching Integrated Project Team 
(OIPT) and other VA/DOD interagency governance boards. VA VLER EPMO 
regularly meets with DCMO, USD P&R, and the three Military Departments 
during the VLER OIPT to review IDES requirements and perform IT 
planning, design, and execution.
    DOD Response. The DOD Deputy Chief Management Office (DCMO) and the 
Under Secretary of Defense for Personnel and Readiness (USD (P&R)) work 
closely with the Department of Veteran Affairs (VA) Executive Director 
(ED) Virtual Lifetime Electronic Record (VLER) to delineate shared 
strategic goals, assumptions and planning for IDES IT collaboration. 
DCMO, USD P&R, and three Military Departments regularly meet with VA 
VLER during the VLER Overarching Integrated Project Team (OIPT) to 
review IDES requirements and perform IT planning, design, and 
execution. The Departments share IT goals via the Joint Executive 
Council (JEC), the Benefits Executive Council, Information Sharing/
Information Technology (BEC IS/IT) working group, HEC/IM/IT Information 
Management Technology Working Group, Interagency Program Office (IPO) 
and the Virtual Lifetime Electronic Record (VLER) office.

    b. A prioritized list of current and planned IDES IT projects, 
including timeline, critical milestones, and planning documents for the 
development and implementation of each such project;
    VA Response. The VLER EPMO works closely with DCMO and USD (P&R) on 
several IT projects that will provide benefits to our transitioning 
Servicemembers and Veterans:

    <bullet> Automating Disability Benefits Questionnaire (DBQ) 
Information Collection: A capability to provide a TurboTax-like, Web-
based forms to facilitate the collection of specific disability VA 
Rating Schedule information from VA and private clinicians who perform 
disability examinations. The initial capability will be available by 
the end of Summer 2012, with all Disability Benefits Questionnaire 
(DBQ) forms available in the automated solution by Fall 2012.
    <bullet> eBenefits: Secure Web portal that provides a central 
location for Servicemembers, Veterans, and their families to research, 
find, access, and manage their benefits and personal information. VA 
and DOD are committed to improving the online experience for Veterans 
and Servicemembers. More than 1.4 million Veterans and Servicemembers 
use eBenefits to access more than 40 capabilities made available via 
eBenefits.va.gov.
    <bullet> Electronic Case File Transfer (eCFT): Provides VA case 
managers, Veterans Health Administration (VHA) Clinicians, and Veterans 
Benefits Administration (VBA) Rating Adjudicators the ability to 
receive Service Treatment Records and additional claims information in 
an electronic format from the DOD, ultimately resulting in more timely 
and efficient adjudication of disability claims. VA and the DOD will 
deploy the capability at several pilot sites during August 2012.
    <bullet> VLER Data Access Services (DAS): The initial capability to 
implement core data access services for use by producers and consumers 
of information through the VLER DAS will be available by July 2012.
    <bullet> Veteran Tracking Application (VTA): Electronic system 
designed to monitor Servicemembers and Veterans performance of the IDES 
process. VTA 2.0 was released on June 9, 2012 providing enhanced 
information sharing between VA and DOD case managers and additional DD-
214 data required for claims processing.

    DOD Response. DCMO and USD (P&R) ED VLER work closely on several IT 
projects that will benefit transitioning Servicemembers. Some of these 
are ``bridge'' solutions until fielding of Integrated Electronic Health 
Record (iEHR) and VLER. Projects include:

    Automating Disability Benefits Questionnaire (DBQ) Information 
Collection: VA is developing a capability to provide a TurboTax-like, 
Web-based forms to facilitate the collection of specific disability VA 
Rating Schedule information from VA and private clinicians who perform 
disability examinations. The initial capability will be available in 
summer 2012, with all Disability Benefits Questionnaire (DBQ) forms 
available in the automated solution by fall 2012.
    eBenefits: Secure Web portal that provides a central location for 
Servicemembers, Veterans, and their families to research, find, access, 
and manage their benefits and personal information. VA and DOD are 
committed to improving the online experience for Veterans and 
Servicemembers. More than 1.4 million Veterans and Servicemembers use 
eBenefits to access more than 40 capabilities made available via 
eBenefits.va.gov.
    Electronic Case File Transfer (eCFT): Will provide DOD and VA the 
ability to exchange Service Treatment Records and additional claims 
information in an electronic format, resulting in more timely and 
efficient adjudication of disability claims. VA and the DOD plan to 
deploy the capability at several pilot sites in August, 2012.
    VLER Data Access Services (DAS): VA and DOD plan to provide an 
initial capability to implement core data access services for use by 
producers and consumers of information through the VLER DAS.
    Veteran Tracking Application (VTA): Electronic system designed to 
monitor Servicemembers and Veterans performance of the IDES process. VA 
released VTA 2.0 on June 9, 2012, providing enhanced information 
sharing between VA and DOD case managers and provides additional DD-214 
data required for claims processing.

    c. An end-to-end enterprise-wide IDES IT solution;
    VA Response. VA receives over a million claims for benefits each 
year. IDES is a critical program in support of Servicemember transition 
to Veteran status. As such, VLER EPMO has worked closely with subject 
matter experts and senior leaders within the VA--Veterans Benefits 
Administration (VBA) and VHA--and the Department of Defense USD (P&R), 
DCMO, Military Departments--in developing and documenting strategies to 
provide full IT support to the IDES program. Capabilities such as 
tracking, work flow management, reporting, and case file transfer are 
developed and delivered on incremental basis.
    Under the VLER Initiative, VA delivers enhancements every 6 months 
to better support the field and increase transparency, accountability, 
and timeliness within IDES. In an effort to modernize the tools 
available to IDES care managers and to better serve our Veterans, VLER 
is transitioning VTA to a new technology platform. This platform, which 
is shared with the Veterans Relationship Management (VRM) initiative, 
will provide VTA users with enhanced functionality and streamline 
future information sharing efforts between VA and DOD case/care 
management/coordination and benefits assistance lines of business. The 
Federal Recovery Coordination Program (FRCP) was the first VTA module 
to transition to this new platform on June 4, 2012. VA is facilitating 
the transition of the remaining VTA modules such as IDES. In addition, 
VA and DOD are piloting strategies to exchange case files 
electronically between care coordinators in an effort to diminish the 
time it takes to physically transfer files.
    VLER Data Access Services (DAS), referenced above, in conjunction 
the Veterans Benefit Management Systems (VBMS), represent the latest in 
technology and business transformation efforts focused on reducing 
claims backlog for Veterans. Once fully implemented, claims information 
from DOD will be orchestrated by the VLER DAS to VBMS for streamlined, 
paperless claims adjudication.
    DOD Response. DCMO and the Office of Warrior Care Policy (WCP) have 
worked closely with VA and the Military Departments to develop and 
document strategies to provide full IT support to the IDES program. 
Capabilities such as tracking, work flow management, reporting, and 
case file transfer are developed and delivered on incremental basis. 
The DCMO, supporting the Office of Warrior Care Policy (WCP), is 
providing business process mapping, and business process analysis 
expertise to identify best practices and system architecture best 
practices. The Department will use this effort to inform and integrate 
IDES IT requirements into larger enterprise solutions, including iEHR, 
VLER, and the VLER Data Access Services (DAS). VLER DAS, in conjunction 
the Veterans Benefit Management Systems (VBMS), represent the latest in 
technology and business transformation efforts focused on reducing VA's 
claims backlog. Once fully implemented, VLER DAS will enable 
streamlined, paperless claims adjudication from the DOD to VBMS.

    d. Any formal policy, directive(s) or other guidance issued by the 
Department(s) establishing an organizational, leadership and or 
governance structure for joint IDES IT collaboration; and
    VA Response. Business process and requirements validation for VLER 
Capability Area (VCA) 1 is governed by the Health Executive Council 
(HEC). Business process and requirements validation for VCAs 2, 3, and 
4 is governed by the Benefits Executive Council (BEC). VCA 1 IT 
execution is overseen by the DOD/VA IPO Advisory Board, which is 
officially chartered and reports directly to the Secretary of Veterans 
Affairs and Secretary of Defense. VCA 2, 3, and 4 IT execution is 
overseen by the VLER Overarching Integrated Project Team (OIPT), which 
reports to several Executive Steering Committees and Task Forces. The 
VLER OIPT charter is currently in coordination.

    DOD Response. The DOD/VA Joint Executive Council (JEC) provides 
overall organization IT governance oversight for functional 
requirements and IDES/VLER Benefits. The Inter-Agency Program Office 
Advisory Board, which is officially chartered and reports directly to 
the Secretary of Veterans Affairs and Secretary of Defense, provides 
organization IT governance oversight for iEHR and VLER Health 
acquisition, and IT execution. The Health Executive Council governs 
business process and requirements validation for VLER Capability Area 
(VCA) 1. The Benefits Executive Council governs business process and 
requirements validation for VCAs 2, 3, and 4. The VLER Overarching 
Integrated Project Team (OIPT), which reports to several Executive 
Steering Committees and Task Forces, oversees IT execution of VCA 2, 3, 
and 4. The VLER OIPT charter is currently in coordination between DOD 
and VA.

    e. Metrics or criteria utilized by the Departments (e.g., VA's 
project management accountability system (PMAS)) to evaluate the status 
of project-specific and enterprise level IDES IT collaboration between 
the Departments.
    VA Response. The VA Office of Information and Technology (OIT) 
Program Management Accountability System (PMAS) sets strict guidance on 
metrics and criteria to evaluate project specific and enterprise level 
IDES IT. PMAS is a performance-based project management discipline that 
is mandated by the Assistant Secretary for Information & Technology 
(AS/IT) for all planning, development, and delivery all IT development 
projects. The intent of PMAS is to improve the rate of success of VA's 
IT projects. PMAS uses incremental product build techniques for IT 
projects, with delivery of new functionality (tested and accepted by 
the customers) in cycles of six months or less. Projects managed under 
PMAS are tightly monitored and are subject to being halted when 
significant deviations to plan occur and insufficient remediate plans 
are presented. PMAS is a rigorous management approach intended to 
deliver smaller, more frequent releases of new functionality to 
customers.
    All IT projects in support of IDES tracking/reporting are governed 
by PMAS. Throughout the lifecycle of the project, status against 
project milestones (e.g. requirements complete, development complete, 
Production Release) is recorded within the Primavera scheduling tool, 
and used to track the progress of the project.
    A monthly Warrior Support IPT meeting is held on the 3rd Wednesday 
of every month, and includes representatives from the business and 
technical communities. VA leadership reviews the status of PMAS 
projects through regular and consistent reporting against established 
baselines, such red-flag and milestone reviews.

    DOD Response. The VA Office of Information and Technology (OIT) 
Program Management Accountability System (PMAS) sets strict guidance on 
metrics and criteria to evaluate project specific and enterprise level 
IDES IT. PMAS is a performance-based project management discipline that 
is mandated by the Assistant Secretary for Information & Technology 
(AS/IT) for all planning, development, and delivery all IT development 
projects. The intent of PMAS is to improve the rate of success of VA's 
IT projects. PMAS uses incremental product build techniques for IT 
projects, with delivery of new functionality (tested and accepted by 
the customers) in cycles of six months or less. Projects managed under 
PMAS are tightly monitored and are subject to being halted when 
significant deviations to plan occur and insufficient remediate plans 
are presented. PMAS is a rigorous management approach intended to 
deliver smaller, more frequent releases of new functionality to 
customers.
    All VA IT projects in support of IDES tracking/reporting are 
governed by PMAS. Throughout the lifecycle of the project, status 
against project milestones (e.g. requirements complete, development 
complete, Production Release) is recorded within the Primavera 
scheduling tool, and used to track the progress of the project. VA 
hosts a monthly Warrior Support IPT meeting the 3rd Wednesday of every 
month, which includes representatives from the business and technical 
communities. VA leadership reviews the status of PMAS projects through 
regular and consistent reporting against established baselines, such 
red-flag and milestone reviews.

    Question 5. Please describe the steps taken by the Departments to 
ensure that any IT solution for IDES is capable of being integrated 
into VLER. As part of this description, please detail how VLER factors 
into the Departments' development of a shared IDES IT strategy and 
ongoing collaboration.
    VA Response. The Departments have taken deliberate steps to ensure 
any IT solution for IDES is capable of being integrated into VLER. VLER 
EPMO oversees IDES IT systems as an integrated component of the broader 
VLER EPMO portfolio.
    To ensure the synchronization of current and future IT solutions 
with the long-term VLER effort, VLER leverages existing projects, 
carefully defined architecture, and web services strategies to ensure 
that interfaces with the VLER Data Access Services can be created. For 
example, through the Information Sharing Initiative (ISI), VA and DOD 
share case coordinator information across Federal Case Management Tool 
(FCMT), VTA, and DOD systems.

    DOD Response. The Departments have taken deliberate steps to ensure 
any IT solution for IDES is capable of being integrated into VLER. VLER 
oversees IDES IT systems as an integrated component of the broader VLER 
portfolio. The DOD/VA Benefits Executive Council Information Sharing/
Information Technology (BEC IS/IT) group is specifically tasked to 
coordinate, validate and promote IDES strategic and interagency 
information sharing to ensure an IDES end-to-end information technology 
solution within iEHR and VLER. Additionally, the effort to map current 
DOD, VA and Military Department IT systems (and their funding streams) 
supporting IDES will help inform the BEC IS/IT of near, mid and long 
term IT requirements.
    To ensure the synchronization of current and future IT solutions 
with the long-term VLER effort, VLER leverages existing projects, 
carefully defined architecture, and web services strategies to ensure 
that interfaces with the VLER Data Access Services can be created. For 
example, through the Information Sharing Initiative (ISI), VA and DOD 
share case coordinator information across Federal Case Management Tool 
(FCMT), VTA, and DOD systems.

    Question 6. Committee oversight has discovered that the current 
medical evaluation process for soldiers with TBI and PTSD is 
inconsistent. The medical records of reviewed cases reflect these 
inconsistencies, as some medical records combine and document symptoms 
of both PTSD and TBI and others do not, leaving each as a separate 
diagnosis.

    a. What is the DOD and VA standard of practice for diagnosing TBI 
and PTSD?
    VA Response. VA clinicians adhere to the standards of practice 
established by the VA/DOD Clinical Practice Guideline for the 
Management of Concussion/Mild Traumatic Brain Injury (TBI). VA 
clinicians also adhere to the standards of practice established by the 
VA/DOD Clinical Practice Guideline for the Management of Post-Traumatic 
Stress.

    DOD Response. The DOD and VA standards of practice for diagnosing 
TBI and PTSD are based on published definitions and clinical practice 
guidelines. Both the Veterans Health Administration (VHA) Directive 
2009-028 and the DOD (Health Affairs Memorandum, October 2007) define 
TBI as a traumatically induced structural injury or physiological 
disruption of brain function as a result of an external force. The VHA 
Directive and DOD Memorandum define severity level of TBI using the 
Glasgow Coma Scale score, length of loss of consciousness, and length 
of post-traumatic amnesia. In both agencies, the diagnosis of mild TBI 
(mTBI) is based on the injury event as well as changes in mental status 
occurring during the injury. The VA/DOD Clinical Practice Guidelines 
for the Management of Concussion/Mild Traumatic Brain Injury was 
developed in 2009 and outlines the standard criteria for the diagnosis 
of mTBI.
    Policy Guidance for the Management of Concussion/Mild TBI in the 
Deployed Setting (DTM 09-033) requires mandatory assessment of a 
Servicemember (SM) involved in potentially concussive events including 
vehicle associated with a blast event, collision or rollover; any SM 
within 50 meters of a blast, a direct blow to the head or loss of 
consciousness. The identified potentially concussive events provide a 
standardized method for the implementation of screening and diagnosis 
of acute mTBI in a deployed setting.
    In 2010, the DOD and VA jointly published, ``The Clinical Practice 
Guidelines for the Management of Post-traumatic Stress.'' This 
guideline supports the Diagnostic and Statistics Manual of Mental 
Disorders, 4th Edition, Text Revision (DSM-IV TR) as the standard for 
all behavioral health providers who work within Military Treatment 
Facilities (MTFs) to use for the diagnosis of PTSD, as required by 
licensing laws and credentialing agencies.

    b. How is each standard of practice applied?
    VA Response. VA issued VHA Directive 2010-012, ``Screening and 
Evaluation of Possible Traumatic Brain Injury in Operation Enduring 
Freedom/Operation Iraqi Freedom Veterans,'' in March 2010. This 
Directive establishes the policy for the administration of the TBI 
screening, comprehensive evaluation, and treatment of Operation 
Enduring Freedom/Operation Iraqi Freedom Veterans receiving medical 
care within VHA.
    VA also developed a computerized Comprehensive TBI Evaluation 
Template that is used to document the results of every comprehensive 
evaluation conducted following positive TBI screening findings.
    The VA Uniform Mental Health Services Handbook (VHA Handbook 
1160.01) addresses a multitude of clinical practice issues, and 
indicates that treatment and assessment for mental health disorders 
must be consistent with the appropriate clinical practice guidelines.

    DOD Response. VA and DOD application of practice policies and 
procedures address the deployed and non-deployed DOD settings, as well 
as the post-separation environment of the VA. MTF credentialed 
providers make a diagnosis of TBI and PTSD based on appropriate 
provider education, clinical references, and compliance with licensing 
laws. These providers combine clinical practice guidelines and clinical 
judgment to arrive at a diagnosis. They may use various methods of 
assessment, including interviews, instruments and psychological 
screening, to evaluate whether or not a given SM meets the criteria for 
TBI and or PTSD.
    DTM 09-033 is an example of a DOD deployed setting policy for mTBI 
that is a standard applied to practice. DTM 09-033 requires all 
military personnel involved in potentially concussive events be 
promptly evaluated through use of a standard tool, the Military Acute 
Concussion Evaluation (MACE). There are also comprehensive screening 
programs for TBI that have been implemented to facilitate the detection 
of mTBI. The Post Deployment Health Assessment has PTSD and TBI 
screening questions to identify redeployed SMs who may have a history 
of concussion or have PTSD symptoms. In the non-deployed setting, the 
standard of practice for both PTSD and TBI care is applied through 
dissemination and implementation of evidence based guidelines. In 
addition, numerous clinical support tools have been developed and 
disseminated to assist the provider in navigating the assessment and 
treatment of both PTSD and mild TBI when SMs continue to have symptoms.
    Additionally, programs such as PTSD Treatment in Primary Care 
Settings, Re-Engineering Systems of Primary Care Treatment in the 
Military (RESPECT-Mil), and Behavioral Health Integration enables DOD 
primary care providers to screen and treat health-seeking patients in 
primary care clinics for PTSD, suicidal ideation, and depression while 
integrating behavioral health care providers into routine care.
    VA issued the VHA Directive 2010-012, ``Screening and evaluation of 
possible TBI in OEF/OIF Veterans,'' in March 2010. This Directive 
establishes the policy for the administration of the TBI screening, 
comprehensive evaluation, and treatment of OEF/OIF/OND Veterans 
receiving medical care within VHA. As part of this evaluation protocol, 
VHA developed a mandatory computerized Comprehensive TBI Evaluation 
Template that requires a diagnostic conclusion regarding the occurrence 
of TBI to be documented.

    c. What is the DOD and VA standard of practice for documenting 
differences between TBI and PTSD in the medical record?
    VA Response. VA's Comprehensive TBI Evaluation Template directs the 
medical provider to make a determination as to whether the Veteran's 
current symptoms are related to TBI, or to a mental health condition, 
including Post-Traumatic Stress Disorder (PTSD), or to a combination of 
TBI and mental health problems. It is not always possible to 
differentiate between the causes of some symptoms. In those cases, the 
symptoms are related to both conditions. VA's PTSD and Mental Health 
Disorders Disability Benefits Questionnaires (DBQs) specifically 
require the examiner to document whether or not the Veteran has a 
diagnosed TBI, and if so, to document if it is possible to 
differentiate what symptom(s) is/are attributable to each diagnosis. 
The topic of differentiating PTSD symptoms from TBI symptoms is 
addressed during the Office of Disability and Medical Assessment's 
online TBI and PTSD Certification trainings.

    DOD Response. Although many symptoms of TBI and PTSD overlap, they 
are two separate clinical conditions with two separate diagnostic 
criteria. The diagnostic criteria for TBI are established through a 
history and physical exam at time of injury and are documented through 
the use of ICD-9 codes as further defined by published definitions and 
guidelines. Point of injury assessment remains the most accurate 
approach to early identification of the presence of a TBI through 
mandatory concussion screening that occurs at various levels to ensure 
detection and maximize treatment opportunities. If a SM is diagnosed 
with PTSD and TBI, two separate ICD-9 codes are entered into the 
electronic health record. VA directs the medical provider to determine 
if the Veteran's current symptoms are related to TBI, or to a mental 
health condition (to include PTSD), or to a combination of TBI and 
mental health problems. It is not always possible to differentiate 
between the causes of some symptoms. If symptoms are related to both 
conditions, both diagnoses are made. VA's PTSD and Mental Health 
Disorders Disability Benefits Questionnaires (DBQs) specifically 
require the examiner to document whether or not the Veteran has a 
diagnosed TBI and if so, to document if it is possible to differentiate 
what symptom(s) is/are attributable to each diagnosis. The topic of 
differentiating PTSD symptoms from TBI symptoms is addressed during 
Disability and Medical Assessment online TBI and PTSD Certification 
trainings.

    d. Do all DOD and VA medical facilities adhere to the same 
standards of practice in diagnosing TBI and PTSD?
    VA Response. The policy established by VHA Directive 2010-012 and 
the Comprehensive TBI Evaluation Template apply across all VA 
facilities. VHA-wide performance measures allow monitoring of adherence 
to standards utilizing an External Peer Review Process. This External 
Peer Review Process would address the standards of practice of 
diagnosing both TBI and PTSD.

    DOD Response. DOD and VA have policies and procedures in place to 
ensure adherence to standards of practice in TBI and PTSD care by all 
providers. Some of these VA guidelines have already been discussed. The 
Services generate policies to which DOD providers are expected to 
adhere. Examples of Service policies related to these issues include 
the following:

    <bullet> OTSG/ MEDCOM Policy Memo 12-035 Policy Guidance on the 
Assessment and Treatment of Post-Traumatic Stress Disorder
    <bullet> OTSG/ MEDCOM Policy Memo 10-040 Screening Requirements for 
Post-Traumatic Stress Disorder and Mild Traumatic Brain Injury (mTBI) 
for Administrative Separations of Soldiers
    <bullet> NAVMED Policy 11-001 Implementing Required Medical Exam 
before Administration Separation For Post-Traumatic Stress Disorder 
(PTSD) or Traumatic Brain Injury (TBI).

    e. If not, what are the reasons for not adhering to the standard of 
practice?
    VA Response. VA monitors consistent adherence to the TBI and PTSD 
standards of practice across all medical facilities.

    DOD Response. Providers are expected to meet the standard of care 
for each individual patient. Policies and guidelines cannot anticipate 
all of the possible reasons a provider may deviate from a standard of 
practice. Patients may require deviations from standard practice due to 
individual clinical care needs as determined by their health care 
provider. Providers are expected to clearly document rationale and 
clinical decisionmaking whenever they deviate from these standards of 
practice. In addition, an individual may refuse care.

    f. Are there instances in which a provider may deviate from the 
standard of practice in evaluating TBI or PTSD? If so, please explain 
these instances.
    VA Response. VA has policy and procedures in place to ensure 
adherence to standards of practice in TBI and PTSD care by all 
providers. VHA Rehabilitation Services and Mental Health Services are 
not aware of TBI/PTSD assessments or diagnoses being made outside of 
the standard of practice and do not sanction providers diagnosing 
outside of standard clinical guidance. DMA has in place Quality 
Assurance programs that can identify compliance with standards of 
practice.

    DOD Response. TBI and PTSD patients may require deviations from 
standard practice due to individual clinical care needs as determined 
by their health care provider. At times, standards of practice have 
difficulty keeping pace with the ever-evolving science of diagnostics, 
treatment and care. As a result, providers must use reasonable clinical 
judgment and support their diagnostic and care decisions with sound 
scientific literature and patient care documentation. With respect to 
TBI care, the clinical algorithms and guidelines are applied to each 
patient. Provider guidance addresses individual variations in treatment 
based upon each SM's symptoms and recovery time. Each Veteran who 
enters the Polytrauma System of Care, at any level of service, requires 
an Individualized Rehabilitation and Community Reintegration Care Plan 
(VHA Handbook 1172.04). Differences in treatment approach or the need 
for consultative service with the other specialty care center would be 
documented in these treatment plans.

    Question 7. During testimony, VA referenced the potential impact 
that passage and implementation of the ``VOW to Hire Heroes Act'' may 
have on IDES.
    a. Describe how VA anticipates this law will impact IDES.
    VA Response. Section 1631(b) of Pub. L. 110-181, the National 
Defense Authorization Act of 2008, authorized automatic eligibility to 
VA's Vocational Rehabilitation and Employment services for severely 
injured or ill Servicemembers. Section 231 of the VOW to Hire Heroes 
Act (PL 112-56) extended the sunset date of that authorization from 
December 31, 2012, to December 31, 2014.
    VA implemented Pub. L. 110-181 through a memorandum of 
understanding (MOU) with DOD. In this MOU, it was agreed that a 
Servicemember participating in IDES and/or referred to a Physical 
Evaluation Board (PEB) is automatically eligible. This process allows 
VA to assist Servicemembers early in their transition to civilian life 
without waiting for a VA memorandum rating to determine entitlement to 
vocational rehabilitation and employment services.
    We are currently finalizing the details of a plan to implement the 
portion of the VOW Act related to Transition Assistance Program (TAP).

    b. What is the expected increase in the number of disability claims 
that VA anticipates as a result of implementation of this law?
    VA Response. As noted above, we are currently working out the 
details of a plan to implement the portion of the VOW Act related to 
TAP, which may impact the number of disability claims that VA 
anticipates. Until we have the final plan, we are unable to make any 
estimates. We expect the final plan to be completed in October 2012.

    c. If VA anticipates an increase in disability claims receipts, 
what actions has VA taken to prepare for this anticipated increase?
    VA Response. As noted above, we are currently working out the 
details of a plan to implement the portion of the VOW Act related to 
TAP, which may impact the number of disability claims that VA 
anticipates.

    Question 8. DOD testimony stated that the Departments ``* * * are 
currently developing a memorandum of understanding that will allow DOD 
to become a member of the working groups updating the VASRD and give 
DOD the opportunity to make recommendations prior to the publication of 
proposed changes in the Federal Register.''
    a. Has DOD participated in the VASRD update project to date and if 
so in what capacity?
    VA Response. DOD has appeared at the public forums on the VASRD 
update project and offered expertise and assistance at several of its 
working groups.
    DOD Response. DOD's participation in the update project has so far 
been limited to the public forums.
    The Deputy Assistant Secretary of Defense (Health Affairs, Clinical 
and Program Policy) attended portions of the VASRD Public Forum in New 
York City from January 17-26, 2012. DOD will continue to participate by 
sending representatives to these VASRD forums that review updates on 
ratings for specific body systems whenever possible. DOD 
representatives at these forums may provide input, but will not be 
voting members on the potential adjustments. The Secretary of the VA 
retains ultimate authority for managing changes to the VASRD.

    b. What impact, if any, will the memorandum of understanding and 
DOD participation have on VA's timeline for issuance of proposed rules?
    VA Response. The memorandum of understanding states that DOD may 
participate in the working groups and that VA will provide DOD 30 days 
to comment before publishing its proposed rules. VA does not anticipate 
any significant impact to the existing project timeline.
    DOD Response. The memorandum of understanding (MOU) mentioned above 
will provide for DOD to have clear methods for requesting any changes 
to the VASRD. It includes a provision for the DOD to apply to have a 
representative on the VA Advisory Committee, subject to approval by the 
Secretary of the VA. It provides DOD with a 30 day period to make 
comments on any updates to the VASRD prior to publication. Given these 
opportunities for DOD to participate early in the update process, it is 
anticipated that there will be minimal impact on the overall timeline 
for VA issuance of proposed rules and adjustments. This MOU has been 
coordinated at the deputy assistant secretary level at VA and DOD; it 
requires a legal review and then approval through the Secretaries.

    c. VA has announced that a VASRD Status Summit will be held on 
June 4-8 and 11-13, 2012 to allow the public to comment on working 
drafts of proposed regulations for nine body systems. Has or will DOD 
make recommendations prior to publication of proposed rules on the body 
systems for which draft proposed regulations have already been 
developed?
    VA Response. As stated above, the MOU gives DOD 30 days to comment 
before VA publishes the proposed rules.
    DOD Response. DOD was invited to send representatives to the 
conferences referenced, and the invitations and agendas were passed on 
to the Services, but they were not able to send subject matter experts 
for the particular body systems discussed. DOD was provided opportunity 
to comment on the proposed rules prior to the conferences, but did not 
have any recommended changes or objections. Based on the MOU, in the 
future DOD will have an opportunity to comment prior to publication of 
notice for these conferences, and will have longer lead time to ensure 
that DOD subject matter experts can take advantage of that opportunity 
for review and comment as needed.

    Question 9. The minutes of the VA and DOD Secretaries' February 27 
meeting state that the ``results of decisions on how redundancy and 
overlap issues in the VA and DOD care coordination programs will be 
resolved (to be made at May 2012 JEC)'' was set as a deliverable for 
the next Secretaries' meeting. Please describe that decision, the 
results, and the plan of action to address those issues.
    VA Response. The Joint Executive Council (JEC) formed a VA DOD 
Warrior Care and Coordination Task Force (VA DOD WC2TF). Task force 
recommendations will be briefed to the JEC (via the HEC and BEC) in 
August 2012. Current work of the VA DOD WC2TF includes:

    <bullet> Establish overarching care coordination policy for 
severely injured, ill, and wounded warriors in transition
    <bullet> Crosswalk the DOD Instructions and VA Handbooks addressing 
care coordination and case management into a single directive (``common 
doctrine'')
    <bullet> Create a single, Comprehensive Plan for care, services and 
benefits for better synchronization and integration
    <bullet> Establish a formal governance structure, informed by a 
Community of Practice that will serve as an ongoing forum for policy, 
programming and oversight.

    DOD Response. The Secretaries have directed that the two 
Departments complete the review and resolve the redundancies between 
the Federal Recovery Coordination and Recovery Coordination Programs by 
their next meeting in the September timeframe. DOD and VA, along with 
the military services and the Wounded Care Policy Department, have 
formed a Task Force which will forward recommendations to the August 10 
JEC.

    Question 10. The minutes of the VA and DOD Secretaries' February 27 
meeting state that for the next Secretaries' meeting the Departments 
will ``i. Determine resource implications of implementing the revised 
transition program for FY 2012 and FY 2013,'' as well as ``ii. Deliver 
implementation plan for revised Transition Assistance Program (TAP) and 
implementation of VOW Act to White House including the 'virtual 
delivery' of TAP so that interagency partners can plan the requisite 
support.'' Please provide the determination of resource implications 
described in (i), as well as the implementation plan for revised TAP 
(including virtual TAP) described in (ii).
    VA Response. As noted above, we are currently working out the 
details of a plan to implement the portion of the VOW Act related to 
TAP, which may impact the number of disability claims that VA 
anticipates.

    DOD Response.
    ``i. Determine resource implications of implementing the revised 
transition program for FY 2012 and FY 2013,''
    Members of the DOD/VA Veterans Employment Initiative Joint Task 
Force are in close dialog with the Office of Budget Management and the 
agencies and Military Departments have developed the implementation 
plan with costing. The IP is currently at the White House awaiting 
approval.
    In the meantime, the Department of Defense and our Department of 
Labor and Veterans Affairs are working hard to implement the mandate of 
the VOW to Hire Heroes Act. This requires all Servicemembers to attend 
the DOL Employment Workshop, which essentially nearly doubles the 
throughput for the DOL workshop. While some members will receive 
waivers to participate in the workshop, no member will be exempt from 
receiving Pre-separation Counseling and the VA Benefits briefing.

    ``ii. Deliver implementation plan for revised Transition Assistance 
Program (TAP) and implementation of VOW Act to White House including 
the `virtual delivery' of TAP so that interagency partners can plan the 
requisite support.''
    The response is at the end of the first paragraph:

        The DOD/VA Veterans Employment Initiative Task Force 
        Implementation Plan is under review by the White House staff. 
        This includes the proposal and costing for delivering new 
        curriculums virtually. The Task Force proposes to leverage the 
        Army's extensive work on virtual curriculums to develop and 
        deploy the revised standardized curriculum in a virtual format. 
        It is planned for the pilot to set the stage for expanded 
        virtual delivery of instruction to meet the needs of dispersed 
        military members. This will help Servicemembers access 
        instruction more readily and prepare for transition earlier in 
        the military life cycle.

    Additionally, President Obama announced, at the VFW Convention on 
July 23, the launch of the redesigned Transition Assistance Program 
(TAP) developed by an interagency task force which includes DOD, the 
Departments of Veterans Affairs (VA), Labor (DOL), Homeland Security 
(DHS), Education (ED), Office of Personnel Management (OPM), and the 
Small Business Administration (SBA). The re-design includes modified 
curriculum that assists in making transitioning Servicemembers ``career 
ready'' upon separation.
    The re-designed DOL Employment Workshop and the core modules for 
transition preparation began being piloted in July and will continue 
through August 2012. The locations include: Fort Hood, Texas; Ft. Sill, 
Okla.; Utica Army National Guard Base, N.Y.; Jacksonville Naval Air 
Station, N.C.; Norfolk NAS, VA; Randolph Air Force Base, Texas and 
Miramar Marine Corps Air Station, California. Based on results of the 
pilot, the curriculum will be modified, as appropriate. Using the 
modified curriculum and standardized learning objectives, the Military 
Services will expand Department-wide, to deliver service at 
approximately 250 military installations worldwide preparing 
Servicemembers to transition confidently from military service to the 
civilian workforce.

    Question 11. Please provide an update on progress made in the 
merger of the SOC and JEC, including any functions of the SOC which 
have not yet been fully incorporated into JEC operations. Has the 
Secretary of Defense appointed the DOD Deputy Secretary to co-chair the 
SOC, does the Department feel it is necessary or appropriate for the 
Deputy Secretary to continue overseeing the issues following the merger 
of these entities?
    VA Response. As of January 19, 2012, the JEC assumed all of the 
Senior Oversight Committee (SOC) functions for oversight of IDES. VA's 
Deputy Secretary Co-Chairs the JEC. DOD must decide the appropriate 
level of participation on the JEC.
    DOD Response. The merger of the SOC and JEC has been completed as 
of 20 March 2012 with all the former functions of the SOC incorporated 
into the JEC process. Due to the inclusion of senior leadership and the 
initiation of the Secretary of Defense/Secretary of Veterans Affairs 
meetings, which discuss specific JEC topics, it is not necessary for 
the Deputy Secretary to oversee JEC issues. Title 38 Section 320 has 
identified the Under Secretary of Defense for Personnel and Readiness 
as the DOD chair for the interagency committee. The Under Secretary of 
Defense for Personnel and Readiness has oversight for all policy issues 
and has direct access to the Secretary of Defense. The portfolios of 
both DOD and VA now line up for oversight of former SOC and current JEC 
topics.

    Question 12. Please describe any recent or planned realignment of 
components or functions of the Office of Wounded Warrior Care and 
Transition Policy, including what improvements the Department expects 
from such realignment, as well as how DOD will oversee and evaluate the 
efficacy of the realignment.
    VA Response. [VA defers to DOD.]
    DOD Response. The Office of Wounded Warrior Care and Transition 
Policy (WWCTP) was moved, effective June 1, 2012, to the Office of the 
Assistant Secretary of Defense for Health Affairs (ASD HA). 
Simultaneously, the Transition Assistance Program (TAP) component of 
WWCTP was moved under the office of the Assistant Secretary of Defense 
for Readiness and Force Management (ASD R&FM). WWCTP's name has been 
changed to Warrior Care Policy (WCP).
    The realignment of WCP, and its TAP component, within the broader 
Personnel and Readiness (P&R) portfolio will strengthen WCP's 
effectiveness in carrying out the Department's commitment to wounded 
warriors and its ability to effect change. WCP's current activities and 
support for wounded warriors directly relates to the health and 
healthcare of these individuals. WCP's programs and initiatives in 
support of wounded, ill and injured Servicemembers will not change; 
alignment within HA will provide enhanced support and coordination for 
these activities. WCP's strategic initiatives are being folded into the 
HA strategic plan and will be monitored and tracked during quarterly 
review and analysis meetings with the Service surgeon generals. The 
Deputy Assistant Secretary for WCP (DASD WCP) reports directly to the 
ASD HA and provides regular program updates at weekly ASD HA leadership 
meetings. The DASD WCP also retains responsibility as the principal 
advisor to the Office of the Under Secretary of Defense for Personnel 
and Readiness for Wounded Warrior matters.
    Likewise, the Transition Assistance Program (TAP), because of its 
wider applicability to all transitioning Servicemembers, is best 
aligned with activities and programs of the ASD R&FM. The ASD R&FM has 
oversight of military personnel policy, education policy and civilian 
policy, and is in the best position to lead, integrate and enhance the 
Department's necessary and critical focus on the transition issues for 
our military personnel. Direct oversight for TAP strategic initiatives 
and policy is provided by the deputy director of the newly established 
Transition to Veterans Program Office. The deputy director reports 
directly the ASD R&FM.

    Question 13. Please describe the activities and findings to date of 
the VA Wounded, Ill, and Injured Task Force, including a timeline for 
completion of the Task Force's review and implementation of any 
recommendations it will make.
    VA Response. The Wounded, Ill, and Injured Task Force conducted a 
VA-wide survey of programs providing care coordination, case management 
and/or benefits advisors. This identified a need to synchronize and 
integrate services amongst programs within VA and DOD. Current work of 
the VA DOD WC2TF includes:

    <bullet> Establish overarching care coordination policy with common 
mission, language for severely injured, ill, and wounded warriors in 
transition
    <bullet> Crosswalk the DOD Instructions and VA Handbooks addressing 
care coordination and case management into a single directive (``common 
doctrine'')
    <bullet> Create a single, Comprehensive Plan for care, services and 
benefits for better synchronization and integration
    <bullet> Establish a formal governance structure, informed by a 
Community of Practice that will serve as an ongoing forum for policy, 
programming and oversight.

    Recommendations will be briefed to the JEC (via the HEC and BEC) in 
August 2012.

    DOD Response. DOD defers to VA to provide the activities and 
findings to date of the VA Wounded, III, and Injured Task Force. 
However, Secretary Panetta directed that an internal DOD task force 
review the IDES process, with VA's support, and report to him by the 
end of September 2012 on improvement recommendations.

    Question 14. The Departments have set a goal of having 60 percent 
of new IDES claims processed within 295 (Active) and 305 (Reserve/
Guard) days. Why was the goal set at only 60 percent of new claims? 
What is the Departments' plan for reaching 100 percent of new claims 
processed within the Departments established timelines?
    VA Response. The Departments strive to process all IDES cases 
within 295 days for Active Duty and 305 days for RC members. However, 
because each case has its unique challenges and there are many 
variables involved 60 percent was established as an initial achievable 
goal for calendar year 2012. In an ongoing effort to achieve 100 
percent of new claims processed within the established timelines, the 
departments will continue to streamline and automate as much of the 
process as possible, and explore and implement other process 
improvement measures.
    DOD Response. The DOD/VA Joint Executive Council established 
activities and milestones for improving the IDES in Joint Strategic 
Plan for Fiscal Years 2011-2013, Goal 3, Efficiency of Operations. The 
improvement metric is the percentage of Servicemembers who complete the 
IDES process within goal. In the plan, the Departments set a long-term 
goal that 80% of Servicemembers complete the IDES within goal (295 days 
for active component or 305 days for reserve component). The 
Departments set the interim that 60% of Servicemembers complete the 
IDES within goal in calendar year 2012. The Departments' goals 
recognize that each Servicemember's case is unique and that some 
Servicemembers will finish IDES in less than 295 days while others with 
more complex cases will take longer than 295 days. Although the 
Departments are striving to accelerate the IDES process for all, the 
current JSP goals incorporate the reality of variations in case 
complexity and the current caseload of Servicemembers awaiting 
disability evaluation.

    Question 15. Please detail the current operational status, 
activities, and resource, space and personnel allocations for each of 
the Vision, Traumatic Extremity Injuries and Amputation, and Hearing 
Centers of Excellence.
    VA Response. [VA defers to DOD.]
    DOD Response.

                   Hearing Center of Excellence (HCE)
------------------------------------------------------------------------

------------------------------------------------------------------------
Operational Status            <bullet>Achieved Initial Operating
                               Capability (IOC): key staff appointed,
                               plus contracted staff for daily
                               operations, strategic communications,
                               registry planning, research
                               administration, and fitness for duty
                               support.
                              <bullet>Full Operating Capability (FOC),
                               defined as an operating hearing data
                               registry, with launch of hearing
                               protection campaign-expected
                               December2013.
------------------------------------------------------------------------
Activities                    <bullet>Published Concept of Operations to
                               guide IOC/FOC progression.
                              <bullet>Selected HCE Leadership-staff is
                               joint DOD/VA (pending formal appointment
                               process); extremely cohesive team and
                               unified alignment of objectives.
                              <bullet>Determined overall staffing
                               requirements-pending validation review
                               and approval.
                              <bullet>Launched Web site
                               (hearing.health.mil).
                              <bullet>Chartered DOD Fitness for Duty
                               working group to determine auditory
                               standards required for specific military
                               occupations.
                              <bullet>Cataloged portfolio of DOD/VA
                               hearing-related research activities to
                               orchestrate best use of limited Federal
                               research funding.
------------------------------------------------------------------------
Resources                     <bullet>Sufficient resources to date and
                               into next FYs (FY 2012 = $10.9M).
------------------------------------------------------------------------
Space                         <bullet>Sufficient space allocated within
                               Wilford Hall Ambulatory Surgical Center
                               (8200 sq. ft. (SF) temporary space).
                               Anticipate 3000 SF in permanent space.
------------------------------------------------------------------------
Personnel Allocations         <bullet>Executive Director appointed; 4
                               Directorate Chiefs assigned; civil
                               service hiring progressing with expected
                               staff late CY 2013.
------------------------------------------------------------------------


       Extremity Trauma and Amputation Center of Excellence (EACE)
------------------------------------------------------------------------

------------------------------------------------------------------------
Operational Status            <bullet>Current manning is eight DOD
                               staff, one VA staff, and zero
                               contractors. Key staff hired include the
                               Executive Director, Deputy Director, and
                               Chief of Staff; contract manpower
                               equivalents equal to 2.4 are inbound in
                               July2012; the VA is hiring four full-time
                               staff and each of the DOD Advanced
                               Rehabilitation Center (ARC) sites are
                               initiating actions for hiring personnel
                               approved in the Concept of Operations
                               (CONOPS).
                              <bullet>Planned Initial Operating
                               Capability (IOC) date is 1October2012 and
                               is defined as 50% manning at each ARC
                               site, staff Directorate, and Executive
                               Office, with the Manpower Concept Plan
                               submitted. We forecast 17 DOD, three
                               contractors, and one VA FTE on-board by
                               our projected IOC. Research, global
                               outreach, informatics, clinical care, and
                               leadership sections are currently
                               sustained. With future hires we will gain
                               momentum toward greater capability.
------------------------------------------------------------------------
Activities                    <bullet>Published CONOPS and Balanced
                               Scorecard to guide EACE progression.
                              <bullet>Army Manpower Concept Plan
                               currently being written to conform to the
                               Center of Excellence Oversight Board
                               approved CONOPS staffing requirements.
                               Selected EACE leadership team including
                               Executive Director, Interim VA Deputy
                               Director, Chief of Staff, and Deputy
                               Director for Research. The four VA staff
                               were approved for hire by VA leadership.
                              <bullet>Established Capability Integrated
                               Product Team (DOD/VA) to develop the EACE-
                               specific registry requirements for the
                               planned Federated Registry, led by the
                               Vision Center of Excellence.
                              <bullet>Building EACE Web site on
                               health.mil. Expect completion within 30
                               days.
                              <bullet>EACE executive leadership, VA
                               Amputation System of Care (ASoC)
                               leadership, and DOD ARC representatives
                               met in January2012 to establish strong
                               working relationships and gain better
                               understanding of each other's missions.
                               Currently conducting biweekly conference
                               calls with ARC and ASoC leadership to
                               better collaborate and address joint
                               issues. Next EACE, DOD, and VA leadership
                               meeting will be held in San Antonio
                               31July to 2August2012 during the VA
                               Amputation Skills Conference.
                              <bullet>Building portfolio development for
                               DOD/VA EACE-related research activities.
                               Seeking seats on programming boards, i.e.
                               the Medical Research and Materiel Command
                               (MRMC) Joint Program Committee for
                               Clinical Rehabilitative Medicine (JPC-8),
                               identifying research gaps and helping to
                               establish research priorities.
                              <bullet>At the request of the European
                               Command (EUCOM), EACE global outreach
                               consultative activity to enhance amputee
                               care capability in the Republic of
                               Georgia Ministry of Defense is ongoing.
------------------------------------------------------------------------
Resources                     <bullet>Sufficient operations and
                               maintenance (O&M) resourcing to date and
                               in the Future Years Defense Program
                               (FYDP). FY 2012 budget: $5.9 million.
------------------------------------------------------------------------
Space                         <bullet>Sufficient space allocated within
                               all ARCs (San Antonio Military Medical
                               Center (180 SF); Walter Reed National
                               Military Medical Center, Bethesda (300
                               SF); and Naval Medical Center, San Diego)
                               and Executive Office in San Antonio,
                               Texas (330 SF).
------------------------------------------------------------------------
Personnel Allocations         <bullet>Each ARC is actively hiring civil
                               service employees. The Executive Office
                               and VA are also placing maximum priority
                               on hiring. The process is lengthy but is
                               progressing well.Extremity Trauma and
                               Amputation Center of Excellence (EACE)
------------------------------------------------------------------------


                    Vision Center of Excellence (VCE)
------------------------------------------------------------------------

------------------------------------------------------------------------
Operational Status            <bullet>DOD and VA executive leadership in
                               place; leadership for 4 of 6 Directorates
                               hired.
                              <bullet>Currently, 15.6 government staff
                               hired with 8 contractors providing
                               administrative support to two regional
                               locations: National Capital Region and
                               Joint Base Lewis-McChord.
------------------------------------------------------------------------
Activities                    <bullet>Transitioned from TRICARE
                               Management Activity (TMA) to Navy Bureau
                               of Medicine and Surgery (BUMED)--
                               October2011.
                              <bullet>Published and received approval of
                               VCE Strategic Plan and Concept of
                               Operations by the MHS CoE Oversight
                               Board--January2012.
                              <bullet>Developing VCE Program Management
                               Plan.
                              <bullet>Developed FY11-12 vision research
                               priorities--April2011.
                              <bullet>Research grantee site visits--in
                               process.
                              <bullet>Deployed Defense and Veterans Eye
                               Injury and Vision Registry (Vision
                               Registry) Pilot--March2012.
                              <bullet>Developing VA Eye Injury Data
                               Store to provide VA clinical data to the
                               Vision Registry.
                              <bullet>Leading effort to develop
                               functional requirements of a joint VA/DOD
                               electronic eye note for the integrated
                               Electronic Health Record (iEHR).
                              <bullet>Partnered with Harvard Medical
                               School/Massachusetts Eye and Ear
                               Infirmary/Schepens Eye Institute and
                               Smith-Kettlewell Research Institute to
                               conduct biannual symposia.
                              <bullet>Coordinating monthly Worldwide
                               Ocular Trauma Video Teleconferences--
                               March2011 (ongoing).
                              <bullet>Leading the process to include Fox
                               eye shields in military individual first
                               aid kits.
                              <bullet>Developing training initiatives
                               and clinical recommendations for VA and
                               DOD vision care providers.
                              <bullet>Coordinating with the Committee
                               for Tactical Combat Casualty Care to
                               include Fox eye shield use in first-
                               responder training programs.
                              <bullet>Leading the effort with MHS Office
                               of Strategic Communications for the
                               health.mil Web site re-design.
                              <bullet>Presented/participated in national
                               and international vision care educational
                               programs.
                              <bullet>Directing gap analysis for
                               assistive technology for the visually
                               impaired.
                              <bullet>Published Federal Practitioner
                               (circ.35,000) update ``Focus on
                               Capabilities Not Disabilities--Sports and
                               Recreation for the Visually Impaired
                               Servicemember and Veteran''--June2012.
                              <bullet>Implementing a pilot vision
                               impairment education center for
                               Servicemembers, Veterans and their
                               families at Walter Reed National Military
                               Medical Center, Bethesda, MD.
------------------------------------------------------------------------
Resource Allocation           <bullet>Budget FY 2012: DOD $17.911M; VA
                               $2.272M.
------------------------------------------------------------------------
Space Allocation              <bullet>Headquarters: Bethesda, MD (Walter
                               Reed National Military Medical Center),
                               approx. 1,700 sq. ft.--opened March2012;
                               Arlington (Crystal City), VA; approx.
                               14,500 sq. ft.--opened July2011
                              <bullet>VCE West: Tacoma, WA (Madigan Army
                               Medical Center), approx. 120 sq. ft.
                               under tenancy negotiation--opened
                               October2010.
                              <bullet>VCE South: San Antonio, TX (San
                               Antonio Military Medical Center)--in
                               planning stages.
------------------------------------------------------------------------
Personnel Allocation          <bullet>Human capital assets as of 6/11/
                               2012: Mil--1, DOD--11, VA--3.6; Total
                               government staff--15.6; Total contract
                               staff--8.
                              <bullet>Executive Director (DOD)
                               appointment 2008.
                              <bullet>Deputy Director (VA) initial
                               appointee 2008, successor appointment
                               2010.
                              <bullet>Four of six Mission Area Directors
                               hired (Information & Information
                               Management, Technology, Rehabilitation &
                               Reintegration, and Education and
                               Training). Two Directors remaining to be
                               hired: (Clinical Care Integration, and
                               Research & Development
                              <bullet>Human capital, facilities, and
                               resource management administrative
                               support hired.
                              <bullet>Vision Services Care Coordinator
                               hired to support DOD and VA clinical care
                               coordination.
------------------------------------------------------------------------

                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Richard Burr to Jo 
    Ann Rooney, Acting Under Secretary of Defense for Personnel and 
 Readiness, U.S. Department of Defense and John R. Gingrich, Chief of 
               Staff, U.S. Department of Veterans Affairs
    Question 1. In written testimony for the record, Paralyzed Veterans 
of America said this about the Integrated Disability Evaluation System 
(IDES):

        ``Servicemembers who are participating in the new approach to 
        discharge evaluation are not systematically being encouraged to 
        seek representation from a [veterans' service organization] 
        Service Representative. Most are relying instead on the 
        advisory services of military counsel, yet each service 
        provides access to military legal counsel in different manners 
        and circumstances.''

    a. What is being done to provide Servicemembers in IDES with access 
to representatives from veterans' service organizations (VSOs)?
    VA Response. [VA defers to DOD.]
    DOD Response. DOD policy requires the Military Departments to 
inform Servicemembers they may seek assistance during the IDES process 
from Government legal counsel provided by the Military Departments, 
private counsel retained at their own expense, or from a VA-accredited 
representative of a service organization recognized by the Secretary of 
Veterans Affairs, using VA Form 21-22, ``Appointment of Veterans 
Service Organizations as Claimant's Representative,'' or from a VA-
accredited claims agent or attorney using VA Form 21-22a, ``Appointment 
of Individual as Claimant's Representative.''

    b. Of the 139 sites using the IDES process, how many have 
representatives from VSOs on site to help Servicemembers with the IDES 
process?
    VA Response. [VA defers to DOD.]
    DOD Response. VA indicates all IDES sites can accommodate VSO's 
that choose to make themselves available to Servicemembers. Some sites 
are able to provide dedicated space for accredited VSOs, while other 
sites accommodate VSOs through temporary meeting space.

    c. Has the Department of Defense (DOD) provided uniform guidance or 
requirements about when Servicemembers should have access to counsel 
during the IDES process? If so, please provide a copy to the Committee.
    VA Response. [VA defers to DOD.]
    DOD Response. Yes. DOD policy (Directive-Type Memorandum (DTM) 11-
015--Integrated Disability Evaluation System (IDES), December, 2011) 
provided uniform guidance or requirements about when Servicemembers 
should have access to counsel during the IDES process.

    Question 2. In a September 2010 report, VA and DOD identified 
customer satisfaction as a key indicator of IDES performance.
    a. What is currently being done to gauge customer satisfaction with 
the IDES process?
    VA Response. [VA defers to DOD.]
    DOD Response. The IDES Customer Satisfaction Survey was suspended 
as of December 6th, 2011, following funding cuts. Currently the VA and 
DOD are not involved in any systematic data collection efforts for 
customer satisfaction data.
    b. Does DOD plan to use customer satisfaction surveys in the 
future?
    VA Response. [VA defers to DOD.]
    DOD Response. Yes, the DOD plans to resume use of the customer 
satisfaction surveys by October 2012, subject to availability of funds.
    c. If so, when will those surveys begin and what, if any, changes 
would be made to the surveys that were being used previously?
    VA Response. [VA defers to DOD.]
    DOD Response. DOD plans to resume IDES Customer Satisfaction 
surveys beginning in fiscal year 2013. DOD is currently reviewing 
previous IDES surveys to determine whether they can be improved.

    Question 3. The Government Accountability Office (GAO) has 
previously reported that staffing shortages are part of the reason for 
delays during the IDES process.
    a. Of the 139 sites using IDES, how many have enough staff to meet 
all of the agencies' staffing goals for each phase of the IDES process?
    VA Response. VHA uses a flexible approach to providing staffing 
options to Veterans Integrated Service Network (VISN) and facility 
directors. Facilities and VISNs have used Locum Tenens and contract 
providers to supplement their staffs as surges have impacted their 
facilities. They have also managed the schedules of their Compensation 
and Pension (C&P) staff to maximize efforts to meet examination 
demands. This approach has shown results as VHA has in 9 of the past 10 
months exceeded the goals for IDES medical examinations at a time when 
examination demand has more than doubled. Further, VHA's flexible 
approach has allowed it to meet or exceed national standards for 
general C&P examinations as well. This agile approach was proven 
necessary as the services often are challenged in identifying workload 
numbers or impact locations in a timeframe allowing for long-term 
planning/staffing.
    VA is staffed to support the estimated steady state of 27,000 IDES 
claims per year. VA and DOD continue to assess the impact of troop 
movement and drawdown of forces on the IDES program. We will monitor 
resource needs as part of our overall evaluation of the program.
    DOD Response. All the Services are required to provide quarterly 
reports of PEBLO staffing ratios at each IDES military treatment 
facility. Navy indicates that all but two IDES sites are adequately 
staffed, with positions being filled at Naval Hospital29 Palms and 
Naval Hospital Beaufort. Army reports indicate adequate staffing at 21 
sites with hiring actions at the other 15. Air Force reports adequate 
staffing at their 74 sites, though 13 use alternate staff to assist as 
required. Air Force is requesting additional PEBLO assistants for every 
site.

    b. If any sites are not meeting all staffing goals, please provide 
a timeline for when those sites will have sufficient staff to meet all 
goals.
    VA Response. As stated to the previous question, it is important to 
note that a flexible staffing approach is necessary given how surges, 
by definition, ebb and flow. Contractors and Locum Tenens are the best 
approach to these examination needs.
    MSC staffing goals were met at each site as IDES was implemented 
worldwide, and continue to be met at all sites today.
    DOD Response. The Department of the Army projected but did not 
complete hiring of long-term IDES staff at MTFs in July 2012. Army has 
filled over 90% of positions for MEB physicians, PEBLOs, and legal 
assistants. Filling behavioral health positions remains the Army's 
largest challenge--36% currently filled, expected to rise to 69% once 
current candidates are on boarded. The Army continues hiring efforts 
for the remaining positions. In addition, the Army is also establishing 
5-7 remote IDES processing locations to handle peak overflow volume. 
The Air Force projects completing additional PEBLO assistant hiring in 
FY 2014. Navy's hiring actions are currently open and should be filled 
before the end of the fiscal year.

    c. Do the agencies have plans to use sites other than medical 
treatment facilities to expand IDES capacity? If so, please explain.
    VA Response. The term ``medical treatment facilities'' is normally 
associated with health care facilities under the auspices of DOD. VA, 
however, has no plans to conduct IDES C&P examinations at other than 
facilities agreed upon during the initial IDES implementation or 
locations established by our Disability Examination Management (DEM) 
Contractors located within the vicinity of the military installations.
    DOD Response. The Air Force and Navy have no plans to use sites 
other than MTFs to expand IDES capacity. The Army is pursuing a 
strategy to establish 5-7 remote IDES processing locations to handle 
peak overflow volume. The Army anticipates the expansion locations will 
be located near MTFs to allow sharing of administrative support. The 
Army's expansion centers will be located in government facilities or 
leased space adjacent to Army installations.

    d. How many of the 139 IDES sites prepare Narrative Summaries at 
their own locations?
    VA Response. VHA does not prepare Narrative Summaries. This 
question should be redirected to DOD.
    DOD Response. Narrative Summaries are prepared within the MTF at 
all IDES sites.

    Question 4. In May 2011, the Secretary of Defense and Secretary of 
Veterans Affairs committed to revising IDES so that it could be 
completed in 150 days. They also agreed to explore options so it could 
be completed in 75 days. For the record, please explain the status of 
those efforts.
    VA Response. The remodeled Integrated Disability System (rIDES) was 
designed to meet the Secretaries intent of completing the process in 
less than 295 days. However, the Army had concerns about the 
effectiveness of rIDES and wanted to focus their energy on improving 
IDES. At the December 2011 SOC meeting, the decision was made to defer 
rIDES proof of concept. The SOC directed the workgroup to continue to 
focus on IDES improvements, harvest best practices from site visits, 
analyze and test them and continue to move forward.
    DOD Response. We continue to focus on IDES improvements which 
include actions such as:

    <bullet> IDES site visits by interdisciplinary teams to identify 
and communicate specific refinements across the Services. Those visits 
yielded improvements that have been implemented system-wide, such as a 
locally developed case management tool for tracking medical board 
cases;
    <bullet> Working closely with VA to develop and implement in 2012 
an IT capability to electronically transfer IDES case files among case 
workers;
    <bullet> Establishing the task force Secretary Panetta directed to 
review the IDES process by the end of September 2012 on improvement 
recommendations;
    <bullet> Evaluating ways to improve utilization of our expedited 
evaluation process for catastrophically ill or injured Servicemembers.

    Question 5. As reflected in VA Fast Letter 12-07, IDES examinations 
for members of the Guard and Reserves are being handled closer to their 
current locations.
    a. How and when are the local facilities notified of how many Guard 
and Reserve members they should expect to provide with examinations?
    VA Response. The local facilities are notified of how many Reserve 
Component (RC) members they should expect to provide with examinations 
when the MSC inputs the exam request(s) into the Compensation and 
Pension Records Interchange (CAPRI) system. This occurs after the MSC 
conducts the initial interview with the Servicemember. The request is 
forwarded electronically to the VA facility closest to the RC member's 
home that has the clinical capability to satisfy the examination 
requirements. Currently, predictability of the RC workload and the 
proposed distribution of this workload remains a challenge.
    DOD Response. DOD updates VA on anticipated case flow estimates. In 
addition, DOD and VA require local leaders to communicate anticipated 
changes in case flow or capability and to develop contingency plans to 
meet unanticipated changes in case flow.
    b. When a local facility receives a request to perform an IDES 
examination, does that examination take priority over that facility's 
standard compensation and pension examination workload?
    DOD Response. [DOD defers to VA.]
    VA Response. IDES examinations enjoy the same priority as the C&P 
examinations offered to our Veterans. Facilities do attempt however, to 
get these examinations scheduled and completed as soon as possible to 
remain within the IDES goals for conducting medical examinations.
    As of May 20, 2012, the VHA average for completing IDES medical 
exams was 38 days plus one day for administration; the IDES Program 
goal for examination completion is 45 days.

    Question 6. According to written testimony for the May 23, 2012, 
hearing, the Joint Executive Council (JEC) reviews a monthly report 
regarding the performance of IDES.
    a. Please explain what role the JEC plays in terms of trying to 
improve IDES performance.
    VA Response. The JEC replaced the SOC on January 12, 2012. The JEC 
serves as the primary VA and DOD coordination body for overseeing and 
supporting joint activities, initiatives and wounded, ill and injured 
issues. IDES is one of those joint initiatives the JEC provides 
oversight and guidance to. The JEC recommends to the respective 
Secretaries the strategic direction for joint coordination and sharing 
efforts. The JEC then oversees the execution and implementation of 
those efforts.
    b. Who ultimately has responsibility for IDES decisionmaking and 
fixing any existing problems with IDES?
    VA Response. The Secretaries of the VA and DOD are ultimately 
responsible for decisionmaking and fixing any existing problems with 
IDES. The Deputy Secretary of VA and Under Secretary of Defense for 
Personnel and Readiness serves as co-chairs of the Joint Executive 
Council (JEC) which coordinates and oversees joint VA/DOD initiatives.
    c. Please provide an organizational chart showing all offices 
within VA, DOD, and the military services that are involved in the IDES 
process and the lines of authority for reporting and accountability.
    DOD Response. [DOD defers to VA.]
    VA Response. See Operational Model Diagram (which is displayed 
previously under responses to Senator Murray's Question 3).

    Question 7. According to written testimony for the May 23, 2012, 
hearing, there are currently over 27,000 military personnel going 
through the IDES process.
    a. In total, how many additional military personnel are projected 
to enter the IDES process in 2012, 2013, and 2014?
    VA Response. [VA defers to DOD.]
    DOD Response. Army expects their IDES caseload to continue to 
increase to approximately 30,000 cases by the end of 20 12 and to 
remain steady through 2014, then to decrease back to pre-deployment 
levels of around 12,000. Navy projects 1275 additional cases beyond 
current levels in FY 2012, 541 in FY 2013, and 549 in FY 2014. The Air 
Force projects 400 Servicemembers beyond current levels will enter the 
IDES each year FY 2012-FY2014.

    b. Of those military personnel, what portion is expected to be from 
active components and what portion is expected to be from the Guard and 
Reserves?
    VA Response. [VA defers to DOD.]
    DOD Response. Army has dedicated new resources to assist in 
preparing and processing Reserve Component disability cases and expects 
the percentage of Servicemembers entering the IDES who are from the 
Reserve Components to increase temporarily beyond the current 30 
percent.
    The Army does not yet have an estimate of the proportions of cases 
expected from the Reserve Components from FY 2012 to FY 2014. Of the 
additional expected IDES cases beyond current levels, the Navy expects 
89 Reserve Component members to enter the IDES in FY 2012, 38 in FY 
2013, and 38 in FY 2014. Of the additional expected IDES cases beyond 
current levels, the Air Force expects 60 Reserve Component members to 
enter the IDES each year between FY 2012 and FY 2014.

    c. Are all IDES cases treated with the same priority level or are 
there certain categories of cases that are expedited above other cases? 
For example, are there procedures to expedite cases based on financial 
hardship or if the servicemember has received a civilian job offer?
    VA Response. [VA defers to DOD.]
    DOD Response. The Military Departments expedite the cases of 
catastrophically ill or injured Servicemembers who choose to waive the 
IDES process and participate in the Expedited DES process.
    In addition, the Military Departments, where possible, expedite 
IDES cases of Servicemembers with extenuating circumstances.

    Question 8. According to VA's written testimony, ``VA can deliver 
benefits in the shortest period allowed by law following discharge thus 
reducing the `benefit gap.' ''
    a. For the record, please explain what is the ``shortest period 
allowed by law'' for making VA disability payments following discharge 
or release from the military.
    VA Response. The ``shortest period allowed by law'' for making VA 
disability payments following discharge or release from the military is 
the first day of the second month after a Servicemember separates. 38 
U.S.C. Sec. 5111 states that payment of monetary benefits may not be 
made for any period before the first day of the calendar month 
following the month in which the award became effective. For example, 
if the Servicemember separates on July 27, the award is effective the 
day following discharge, or July 28. Benefits begin to accrue on the 
first day of the next calendar month, or August 1. Payment for the 
month of August occurs on September 1.
    DOD Response. U.S. Code prohibits VA from providing disability 
compensation prior to the first day of the second month following 
discharge or release from the military. For example, if the 
Servicemember separates on July 27, the earliest date VA can compensate 
the Veteran for disability is September 1.

    b. Currently, how long on average is it taking for VA to issue a 
benefits decision after an IDES participant is discharged or released 
from the military? As requested at the hearing, please provide any 
statistics on how long after service IDES participants receive their 
first VA disability compensation payment (not the VA decision letter, 
but the actual arrival of the first check/deposit).
    VA Response. As of June 8, 2012, VA has processed 7,707 disability 
payments for Servicemembers who have completed the IDES process during 
fiscal year 2012. Currently, VA is averaging 54 days from the date of 
separation to process a payment.
    DOD Response. [DOD defers to VA.]

    c. As requested at the hearing, please provide any statistics on 
how long after service IDES participants receive their first VA 
disability compensation payment (not the VA decision letter, but the 
actual arrival of the first check/deposit).
    VA Response. VA's benefits letter is mailed within one business day 
of the date on which the Veteran's compensation award is authorized. 
Payments are released from the Treasury Department within 48 hours of 
award authorization.
    DOD Response. [DOD defers to VA.]
                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Bernard Sanders to 
  Jo Ann Rooney, Acting Under Secretary of Defense for Personnel and 
                 Readiness, U.S. Department of Defense
    Question 1. At what point did DOD realize that it needed to 1,400 
additional staff?
    DOD Response. The Army, Navy and Air Force continuously monitor 
their DES staff requirements and implemented hiring actions to fill 
shortages beginning in 2008. After fully implementing theIDES at all 
locations in October 2011, the Military Departments recognized that 
caseload exceeded staff capacity. In response, the Departments 
accelerated hiring in late 2011 and efforts to hire and train the 
additional staff are nearing completion.

    Question 2. What occupations do these additional civilian staff 
members hold?
    DOD Response. The Military Services are hiring additional IDES 
civilian staff as Medical Evaluation Board and Physical Evaluation 
Board members and staff, Physical Evaluation Board Liaison Officers 
(PEBLOs), PEBLO assistants, legal and paralegal professionals, 
physicians, psychologists, social workers, and management analysts.

    Question 3. Were any Wounded Warriors hired for these new 
positions?
    DOD Response. The Services do not have readily available 
information on the numbers of wounded warriors hired for these 
positions. But, the Army reports it hired qualified wounded warriors 
who applied for these positions. The Navy and Air Force report that 
they did not receive any applications from wounded warriors in 
connection with the job announcements advertised for their positions.

    Question 4. What factors determine where these additional staff 
members will be assigned?
    DOD Response. The Military Departments determine the assignment of 
additional staff members based on case workload and complexity, the co-
location of supporting functions and established MTF staffing models.

    Question 5. What formal training does the PEB Liaison Official 
receive and what is his or her normal caseload?
    DOD Response. DOD policy requires the Military Departments, at a 
minimum, to train IDES personnel on the statutory and policy 
requirements of the DES; the electronic and paper record keeping 
policies of the Military Department; customer service philosophies; 
familiarization with medical administration processes; the role and 
responsibilities of a Servicemember's assigned military legal counsel, 
an overview of the services and benefits offered by the VA; knowledge 
of online and other resources pertaining to the DES, DOD and VA 
departments; knowledge of the chain of supervision and command; and 
knowledge of Inspector General hotlines for resolution of issues.
    DOD policy recommends that PEBLOs manage no more than 20 cases 
simultaneously. Because active PEBLO case management is concentrated in 
the MEB portion of the disability evaluation process, DOD defines PEBLO 
case ratio for a military treatment facility as the number of trained 
PEBLO staff divided by 100/365 multiplied by the total number of new 
cases at the location per year, where 100/365 is the fraction of time 
devoted to active case management during the MEB portion of the IDES 
during the year.

    Question 6. When Reservists and National Guard personnel go through 
the IDES process, are they on Federal active-duty orders?
    DOD Response. Severely ill or injured Reserve Component 
Servicemembers can be on Active Duty orders for the entire IDES 
process. Other Reserve Component Servicemembers may be placed on Active 
Duty orders to complete IDES activities (exams, interaction with 
PEBLO's, participation at boards, etc.) to accommodate their civilian 
job requirements and family commitments.

    Question 7. Why are there two different timelines for active-duty 
and Reservists?
    DOD Response. DOD policy defines different timelines for active and 
reserve component members to provide more time to coordinate active 
duty periods with Reserve and National Guard members, generate active 
duty orders, and gather medical records from Reserve units and civilian 
doctors. Active Component Servicemembers typically do not require this 
additional time and thus have a shorter overall IDES timeline goal.

    Question 8. If a servicemember expresses no desire to remain on 
active-duty at the beginning of the IDES process, is he or she 
processed any differently?
    DOD Response. The IDES process requires that participants be in an 
Active Duty status during all portions of the process to qualify for 
appropriate pay and benefits. Reservists may coordinate periods of 
Active Duty to comply, but generally must be available, and in an 
active duty status (``on orders'') during those portions of the IDES 
process that requires their participation.

    Question 9. When a servicemember exceeds the goal for an IDES 
phase, how is that flagged to draw attention to the delay in that phase 
of the process?
    DOD Response. DOD and VA IDES staff monitor case timeliness through 
a number of reports available from VA's Veterans Tracking Application 
(VTA). These reports identify cases exceeding IDES goals in all IDES 
stages.

    Question 10. Why can't the Medical Evaluation Board and Physical 
Evaluation Board be consolidated into one Board?
    DOD Response. The law (National Defense Authorization Act of Fiscal 
Year 2008, Section 1602(3)(A)), defines the Disability Evaluation 
System as ``A system * * * comprised of medical evaluation boards, 
physical evaluation boards, * * *'' which requires the Department to 
maintain separate medical and physical evaluation board processes.

    Chairman Murray. Mr. Gingrich?

        STATEMENT OF JOHN R. GINGRICH, CHIEF OF STAFF, 
              U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. Gingrich. Good morning, Chairman Murray. I have a cold 
so I have to speak up. Ranking Member Burr, Members of the 
Committee, I am pleased to be joined this morning by Under 
Secretary Jo Ann Rooney to discuss the IDES system. We have 
come a long way since the issues of Walter Reed Army Medical 
Center were identified in 2007. At that time, VA and the DOD 
were miles apart. Simply stated, the lack of integration and 
cooperation between the Departments did not serve wounded 
servicemembers well.
    Since that time, together we have committed to achieve a 
seamless transition through a multi-pronged approach with IDES 
as one of the critical initiatives. The joint IDES process was 
designed to eliminate time consuming and often confusing 
elements of the separate disability processes. The goals of the 
joint process were to increase transparency, reduce the 
processing time, improve consistency, and reduce the benefits 
gap.
    To achieve greater transparency for servicemembers, we have 
enhanced our online tools, the My Health Vet and benefits, to 
allow servicemembers in IDES to view appointments and lab 
results and to track their claim. Internally, we have increased 
transparency through the IDES Dashboard that tracks performance 
at each IDES site.
    The Secretaries have charged us to reach a combined 
performance goal of 295 days for 60 percent of the 
servicemembers by the end of this year. To ensure that we reach 
this goal, I hold biweekly reviews with all 116 stations. In a 
relatively short period of time, we have seen positive results.
    In January, the oldest case being worked for proposed 
disability rating was 254 days. Today there are no cases over 
180 days. From February 2011 to April 2012, we have reduced the 
average claim development time by 62 percent and the medical 
examination and admin time by 60 percent.
    On April 5th, I committed to the Army Vice Chief of Staff 
that VA would clear, within 60 days, the entire inventory of 
Army cases awaiting proposed rating decisions. We have cleared 
76 percent of those cases and are well on our way to deliver on 
that promise not only for the Army, but for all the services.
    For both preliminary and final ratings, the combined 
productivity of our three Disability Rating Activity Sites, 
DRAS, increased 15 percent in the last month. We have several 
projects to enhance our efficiency and effectiveness such as 
the Veteran Tracking Application that will increase the flow of 
information electronically from DOD to VA, and the electronic 
case file transfer system.
    We have made progress in improving transparency, improving 
consistency, and reducing process time. But our biggest 
achievement to date has been closing the benefit gap. 
Servicemembers no longer wait six to 9 months to receive 
compensation they have earned. Yet, with all these 
achievements, we are not satisfied because we are not meeting 
the requirement for every single servicemember.
    We will continue to work with DOD to improve our systems 
and processes until we achieve all of our objectives in 100 
days for each servicemember. I will often refer to cases or 
claims here today, but let me assure you, I never lose sight of 
the fact that behind a claim is a servicemember and his or her 
family who depend on VA to get it right.
    We will continue to partner with DOD to effectively and 
efficiently get him or her back to their unit to continue 
military service, or if discharged, provide the benefits they 
have earned. As partners, we will overcome the remaining 
challenges together to achieve the seamless transition 
servicemembers deserve. This is a commitment we must meet.
    I look forward to answering any questions that you may 
have.
    [The prepared statement of Mr. Gingrich follows:]

        Prepared Statement of John R. Gingrich, Chief of Staff, 
                  U.S. Department of Veterans Affairs

    Good morning Chairman Murray, Ranking Member Burr, and Members of 
the Committee. I am pleased to be joined this morning by Jo Ann Rooney, 
Ed.D., J.D., Acting Under Secretary for Personnel and Readiness, 
Department of Defense (DOD) to discuss the progress being made by the 
VA and the DOD toward meeting the needs of injured Servicemembers. My 
testimony will focus on the status of our progress toward improving the 
Integrated Disability Evaluation System (IDES) used to transition 
wounded, ill, and injured Servicemembers from DOD to VA or, if found 
fit, return them quickly to their units to continue their military 
service.

                              INTRODUCTION

    VA and DOD have a shared goal: ensuring that Servicemembers' 
transition between VA and DOD is as smooth as possible and honors their 
sacrifice for the greater good. To create a truly seamless transition, 
we have a multi-pronged approach that includes developing a single 
Integrated Electronic Health Record (iEHR), improving our Federal 
Recovery Coordination Program (FRCP) and having an efficient IDES 
system. If we are to truly achieve the seamless transition that we both 
agree is necessary, it will be through measurable progress in all three 
core programs.
    Our commitment is not to create a program or a process; our 
commitment is to create a new paradigm. The old paradigm of two big 
bureaucracies with completely different processes, systems and programs 
did not work in the past and will not work in the future. Seamless 
transition is the new paradigm; not a slogan. At the James A. Lovell 
Federal Health Care Center (JALFHCC), both Servicemembers and Veterans 
are served by a joint VA/DOD team. JALFHCC embodies this new paradigm. 
While there are still issues that we must work through at JALFHCC, it 
is strong evidence that we can overcome barriers when the needs of 
Servicemembers, Veterans and their families are our priority.
    Our Departments understand that we are responsible for the same men 
and women, though at different periods of their lives, and that 
together our Departments can help improve their transition experience 
as they move from one stage to the next. I will focus my remarks today 
on IDES as one piece of a larger transformation.

                                  IDES

    Much has been accomplished to improve the DOD disability process in 
the wake of the issues identified at the Walter Reed Army Medical 
Center in 2007. VA's and DOD's joint efforts have resulted in process 
improvements and created an integrated disability evaluation system for 
Servicemembers who are being evaluated for medical retirement or 
separated. In early 2007, VA and DOD partnered to develop a modified, 
integrated Disability Evaluation System (DES) and a DES Pilot was 
launched in November 2007. This new, joint process was designed to 
eliminate the duplicative, time consuming, and often confusing elements 
of the separate disability processes within VA and DOD. The goals of 
the joint process were to: (1) increase transparency of the process for 
the Servicemember; (2) reduce the processing time; (3) improve the 
consistency of ratings for those who are ultimately medically 
separated; and (4) reduce the benefits gap that existed between the 
point of separation or retirement and receipt of VA disability 
compensation. Authorization for the DES Pilot was included in the 
National Defense Authorization Act for Fiscal Year 2008.
    The DES Pilot was launched at three operational sites in the 
National Capital Region (NCR): Walter Reed Army Medical Center, 
National Naval Medical Center, and Malcolm Grow Medical Center on 
Andrews Air Force Base. The DES Pilot was recognized as a significant 
improvement over the legacy DES process, and, as a result of the Senior 
Oversight Committee (SOC) findings and the desire to extend the 
benefits of the Pilot to more Servicemembers, VA and DOD expanded the 
Pilot. By the end of March 2010, the DES Pilot had expanded to 27 sites 
and covered 47 percent of the DES population. In July 2010, the co-
chairs of the SOC agreed to expand the DES Pilot and rename it IDES. 
Senior leadership of VA, the Services, and the Joint Chiefs of Staff 
strongly supported this plan and the need to expand the benefits of 
this improved process to all Servicemembers. Expansion and full 
implementation of IDES was completed by September 30, 2011. Currently, 
there are 139 IDES sites operational worldwide, including the original 
27 DES Pilot sites.
    In contrast to the DES legacy process, IDES provides a single set 
of disability examinations and a single-source disability rating, for 
use by both Departments in executing their respective responsibilities. 
This results in more consistent evaluations, faster decisions, and 
timely benefits delivery for those medically retired or separated. As a 
result, VA can deliver benefits in the shortest period allowed by law 
following discharge thus reducing the ``benefit gap'' that previously 
existed under the legacy process, i.e., the lag time between a 
Servicemember separating from DOD due to disability and receiving his 
or her first VA disability payment. This lag time used to be 6 to 9 
months; it now is reduced to 30 to 60 days, with our goal being to 
reach no more than 30 days. The DOD/VA integrated approach has also 
eliminated many of the sequential and duplicative processes found in 
the legacy system.
    VA is responsible for four core processes within IDES: claims 
development, medical examination, proposed disability rating, and VA 
benefits estimate letter. VA's target for combined processes is 100 
days of the 295 day combined VA/DOD target. While VA is currently 
meeting the 10-day goal for claims development and the 45-day goal for 
medical examinations, VA is not meeting the 15-day goal for completion 
of the proposed rating and the 30-day standard for delivery of VA 
benefits estimate letters, which currently are 46 and 26 days beyond 
the target, respectively. To address increased volume at the rating 
sites during FY 2011, VBA temporarily placed on site help teams at the 
Baltimore and Seattle VA Disability Rating Activity Sites (DRASs) and 
brokered IDES work to other stations. VBA increased the number of 
Rating Veterans Service Representatives (RVSRs) at the Seattle DRAS in 
March 2012 and now has a total of 174 RVSRs dedicated to the IDES 
mission at Baltimore, Providence, and Seattle. Increased staffing 
levels and maturation of skills for newer RVSR trainees will aid VBA in 
meeting the expected goals for the preliminary rating and final 
benefits stages. The combined productivity of the three DRASs for 
completion of preliminary and final ratings was 3,125 for the month of 
April 2012, which represents a 15 percent increase over March 
performance of 2,708 completed cases. VA will begin to receive military 
separation data electronically in Veterans Tracking Application (VTA) 
in June 2012. It is expected this enhancement will reduce the time it 
takes the DRASs to verify separations, character of service, and 
severance or other pay issues, which must be verified prior to issuance 
of VA benefits.
    Both SECDEF and SECVA have directed their respective Departments to 
reduce the combined processing time to 295 days for 60 percent of 
Servicemembers in IDES by the end of this calendar year with the 
ultimate goal of 100 percent. We have already made great progress 
toward that end. For example, at the Disability Rating Activity Sites 
in January 2012, the oldest case being worked for Proposed Disability 
Rating was 254 days. Today, there is not a single case over 180 days. 
Additionally, it is important to note none of these cases are impacting 
DOD's ability to move forward with their fitness decision. Today we 
find ourselves required to process many more claims per month than we 
had originally anticipated. As demand has increased we have adjusted to 
meet the Servicemember's needs. In January 2012 VA completed 1,254 
Proposed Disability Ratings and in April 2012 VA completed 2,363 
Proposed Disability Ratings. That is an 88 percent increase in monthly 
performance, which allowed for a reduction of more than 5,500 of the 
backlogged claims. We are proud of the advancements we have made, but 
to meet the overall 295-day goal, we will need to focus our efforts on 
ensuring accountability through staffing and governance, utilizing 
technology, process improvements, and increased management oversight to 
endure successful delivery.

                             ACCOUNTABILITY

    First, we have institutionalized accountability mechanisms. At each 
IDES site VA has instituted the concept of a lead VA executive, a 
senior VA official who is directly responsible for the overall IDES 
mission, operations and performance at his/her specific site. With a 
single individual charged with performance responsibility we believe 
management will be able to drive change more quickly and resolve 
problems as they arise. To appropriately track our performance in the 
field, VHA and the Office of VA/DOD Collaboration Service in VA 
developed the ``IDES Dashboard,'' a comprehensive management chart that 
tracks performance in each of VA's four IDES phases at each IDES site. 
Use of the ``IDES Dashboard'' has led directly to improved performance 
tracking and enabled VA's leaders to spot trouble spots and allocate 
resources more effectively.

                          MANAGEMENT OVERSIGHT

    With any project, the appropriate amount of leadership and 
oversight must be applied. VA has elevated oversight to the most senior 
levels of the VA. SECVA and SECDEF meet quarterly, and IDES has always 
been on the agenda and they both receive monthly updates. On a monthly 
basis, I meet with the Vice Chief of Staff of the Army to review 
performance at Army IDES sites. These meetings are attended by senior 
personnel from VA, Office of the Secretary of Defense (OSD), and the 
Army. IDES performance data is reviewed at a very detailed level and 
senior officials in the field are expected to present plans to improve 
performance if standards are not met. Additionally, since May 2011, I 
have been leading a Video Teleconference (VTC) every two weeks with 
senior Veterans Benefits Administration (VBA) and Veterans Health 
Administration (VHA) officials at 116 sites in the field who are 
directly responsible for IDES at their respective sites. During these 
VTCs I review IDES performance at a very detailed level and ask the 
responsible senior official for his/her plan to improve performance.
    VA's office of VA/DOD Collaboration Service also leads a weekly 
telephone conference call with VBA and VHA and a weekly telephone 
conference call with the OSD and the Military Services to review IDES 
performance and problems. Senior VA officials also meet on a monthly 
basis with Navy Bureau of Medicine officials to review performance at 
Navy and Marine Corps IDES sites. IDES performance data is reviewed at 
a very detailed level and senior officials in the field are expected to 
present plans to improve performance if standards are not met. At every 
level of VA, leadership is engaged with our partners in DOD and our 
management team in the field.

                 TECHNOLOGY AND PERFORMANCE IMPROVEMENT

    Our continuous review of the IDES process revealed two consistent 
issues: access to information and reducing the movement of paper files. 
In both instances, we believe technology will play a key role. The next 
series of enhancements to the Veterans Tracking Application (VTA 2.0) 
will leverage our ability to electronically share DD-214 data via VA/
DOD Identity Repository (VADIR) to automatically trigger work flow in a 
way that will reduce overall processing time. VADIR database was 
established to support a One VA/DOD data-sharing initiative in order to 
consolidate data transfers between DOD and VA to assist in determining 
Veteran benefits. The expanded data feed will also include key data 
elements to assist VA Disability Rating Activity Sites (DRAS) in 
determining entitlements to VA benefits such as: date of separation and 
character of service, among others. VTA 2.0 will also include 
additional reporting capabilities that will allow VBA's Office of Field 
Operations to better manage the workflow of VBA employees and provide 
the ability to record the occurrences of diagnostic differences on IDES 
exams to identify inconsistencies. Based on demonstration performance 
to date, we believe that the new version of VTA, scheduled for release 
in June 2012 will greatly improve performance management.
    VA is also collaborating with DOD to accomplish the Secretaries' 
joint goal of achieving electronic case file transfer (CFT) for IDES by 
July 2012. The planned solution will be a single system that will avoid 
development time and costs. CTF will remove the costly and inefficient 
transfer of paper records from DOD to VA by eliminating the need for 
shipping. Our system will accommodate both computable data and scanned 
paper to ensure that the solution we adopt assists both the younger 
Servicemembers with large portions of their records in electronic 
format and older Servicemembers who may still have a significant 
portion of their records in paper.

                               CONCLUSION

    Despite these efforts, we know challenges remain, and there is room 
for significant improvement in IDES. VA and DOD are committed to 
supporting our Nation's wounded, ill, and injured Warriors and Veterans 
through an improved IDES, and we are taking steps to prepare for future 
demand for this system. As such, VA believes that its continued 
partnership with DOD is critical and is nothing less than our 
Servicemembers and Veterans deserve.
                                 ______
                                 
Response to Prehearing Questions Submitted by Hon. Richard Burr to VA, 
Office of Policy and Planning, Integrated Disability Evaluation System 
     and DOD, Office of Wounded Warrior Care and Transition Policy

    [Due to their interrelated nature, the responses to the pre-hearing 
questions submitted by Senator Burr to the Department of Veterans 
Affairs were merged in with the responses from the Department of 
Defense appearing earlier in this transcript.]
                                 ______
                                 
 Response to Posthearing Questions Submitted by Hon. Patty Murray and 
      Hon. Richard Burr to the U.S. Department of Veterans Affairs

    [Due to their interrelated nature, the responses to the posthearing 
questions submitted by Senators Murray and Burr to the Department of 
Veterans Affairs were merged in with the responses from the Department 
of Defense appearing earlier in this transcript.]
                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Bernard Sanders to 
 John R. Gingrich, Chief of Staff, U.S. Department of Veterans Affairs

    Question 1. From the VA perspective, what would you change in the 
IDES process?
    Response.
    a. Implement some of the remodeled IDES improvements concepts 
identified below:

    <bullet> Reduce the number of physical case-file handoffs from 8 to 
3.
    <bullet> Make fitness decision for further military service up 
front, before VA enters into the process.
    <bullet> Ensure VA receives a complete case-file from the Military 
Services after the fitness decision is made.

    b. Automate the IDES process from beginning to end, and enhance the 
management reporting capabilities to enable IDES sites to effectively 
manage their cases.
    c. Identify and implement best practices and implement electronic 
data sharing throughout the IDES process.

    Question 2. What formal training does a VA case manager receive and 
what is his or her normal caseload?
    Response. VA Military Service Coordinators (MSCs) receive the same 
core technical training for claim processing as Veterans Service 
Representatives (VSRs) as well as IDES process training. Disability 
Rating Activity Site (DRAS) personnel receive the same national level 
training as all other claims adjudicators in a regional office. As a 
guide for determining sufficient resources, VA uses a staffing model in 
which each MSC has 30 new cases per month.

    Question 3. Are servicemembers enrolled in the VA health care 
system upon completion of the IDES process?
    Response. No. However, the enrollment in the VA health care system 
is highly encouraged to Servicemembers receiving disability 
examinations through IDES. VA has worked closely with DOD to implement 
an online VA Form 10-10EZ, Application for Health Benefits, which is 
completed by Servicemembers at the time of demobilization or 
termination of service. Additionally, active duty Servicemembers 
transitioning through TAP are briefed routinely by VA staff and 
informed on how to apply for VA benefits, including enrollment in the 
VA health care system.

    Question 4. How is a servicemember discharged with mental health 
issues seamlessly transferred from DOD to VA mental health care 
providers?
    Response. VA has a formal process in place to transition wounded, 
ill and injured Servicemembers from DOD to VA. VA has 33 VA Liaisons 
for Healthcare, registered nurses or licensed social workers, stationed 
at 18 Military Treatment Facilities (MTFs) with concentrations of 
recovering Servicemembers returning from Iraq and Afghanistan to 
transition ill and/or injured Servicemembers from DOD to the VA system 
of care. VA Liaisons are co-located with the DOD case managers at the 
MTFs, and provide onsite consultation and collaboration regarding VA 
resources and treatment options. Each referral from the DOD treatment 
team, including referrals for Servicemembers being medically discharged 
with mental health issues, utilizes a standardized referral form 
completed by the DOD Nurse Case Manager identifying the ongoing 
treatment needs. In addition, each referral to a VA medical center 
(VAMC) includes supporting medical documentation such as progress notes 
and narrative summaries. While VA Liaisons participate in discharge 
planning at the MTF, they are dependent on a referral from the DOD case 
manager prior to engaging with Active Duty Servicemembers to coordinate 
ongoing healthcare needs at VA. At MTFs without an onsite VA Liaison, 
DOD Case Managers refer Servicemembers directly to the Operation 
Enduring Freedom/Operation Iraqi Freedom/Operation New Dawn (OEF/OIF/
OND) Program Manager at the Servicemember's home VAMC. These referrals 
also utilize the standardized referral form identifying the ongoing 
treatment needs as well as the supporting medical documentation. 
Servicemembers may elect to seek care in the private sector using 
TRICARE, in which case they would not be referred to VA and the 
transition not managed by the VA Liaison.
    In addition, OEF/OIF/OND Clinical Case Managers screen all 
returning combat Veterans for the need for case management services, 
including those referred from an MTF as well as those, self-presenting 
for initial care at a VAMC. This screening identifies Veterans who may 
be at risk so VA can intervene early and provide assistance before the 
Veteran is in crisis. In addition to prevalent medical and mental 
health issues related to deployment such as Post Traumatic Stress 
Disorder (PTSD), this screening includes the risk factors for 
psychosocial issues such as homelessness, unemployment, and substance 
abuse. Case management needs are identified early, a plan of care is 
developed, and follow up is provided as long as needed. OEF/OIF/OND 
case managers are experts at identifying and accessing resources within 
their health care system as well as in the local community to help 
Veterans recover from their injuries and readjust to civilian life.

    Question 5. What outreach services does VA provide veterans 
immediately after discharged through the IDES process?
    Response. Like all Servicemembers, individuals released through 
IDES receive the Welcome Home Package, which contains information about 
all VA benefits for which they may be eligible. VA also assigns case 
managers, who assist in outreach services, to individuals whom DOD 
classified as seriously injured before discharge.

    Chairman Murray. Thank you very much. Mr. Bertoni?

 STATEMENT OF DANIEL BERTONI, DIRECTOR, EDUCATION, WORKFORCE, 
   AND INCOME SECURITY, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Bertoni. Chairman Murray, Ranking Member Burr, Members 
of the Committee, good morning. I am pleased to discuss the 
Departments of Defense and Veterans Affairs' efforts to improve 
the performance of their Integrated Disability Evaluation 
System, or IDES, which is now the standard process for 
assessing servicemember disabilities worldwide.
    Since its start, GAO has monitored the evolution of this 
process and made several recommendations to address design and 
other challenges. My statement today is based on our ongoing 
work for this Committee and focuses on the extent to which IDES 
is meeting key performance goals and ongoing efforts to improve 
performance.
    In summary, we found that overall timeliness has worsened, 
with the average number of days to complete claims for active 
duty servicemembers increasing from 283 days in 2008 to 394 
days last year, which is well above the stated goal of 295 
days. During the same period, the proportion of active duty 
cases that met timeliness goals also decreased very steeply 
from 63 percent to just 19 percent.
    With the exception of the physical evaluation board phase, 
IDES claims also fell consistently short of interim timeliness 
goals with the medical evaluation board, transition, and 
benefits phases. Processing delays were most significant in 
completing the medical evaluation board process. In 2011, only 
20 percent of active duty cases met the targeted goal for 
obtaining a medical board decision.
    In addition to timeliness, DOD and VA assess servicemember 
satisfaction via telephone surveys, which we found to have 
shortcomings in both design and administration such as unduly 
limiting who actually receives a survey and computing average 
scores in a way that may overstate satisfaction, and limit the 
usefulness of this data as a performance management tool.
    In fact, using an alternative calculation that eliminates 
neutral responses, we found satisfaction rates several times 
lower than DOD reports. DOD and VA have undertaken a number of 
actions to address IDES challenges, many of which we have 
identified in prior work.
    For example, per our recommendation top leadership has 
developed a more robust monitoring and oversight process to 
improve communication and accountability, which includes more 
frequent contacts between the Secretaries of the Departments to 
discuss progress in various fronts, regular meetings chaired by 
the Army's Vice Chief of Staff and VA's Chief of Staff that 
include reviews of site performance and a forum for local and 
regional facility commanders to provide feedback on best 
practices and current challenges.
    VA also holds its own biweekly conferences with local staff 
responsible for their portion of the process. The Departments 
are also working to address long-standing medical board and VA 
rating staff challenges. In fact, the Army is in the midst of a 
hiring effort to more than double medical board staff, 
including liaisons, physicians, and support personnel, while VA 
has more than tripled staffing at IDES rating sites.
    The Departments are also working to address limitations in 
their automated systems, including taking steps to improve the 
ability of local facilities to electronically track and monitor 
case progress, and to improve the quality of case data which we 
found to be problematic. However, key upgrades are still 
pending and various sites continue to rely on ad hoc, local, 
and potentially redundant processes to manage their cases.
    Moreover, despite efforts by DOD and the services to 
improve data quality, the current IDES tracking system lacks 
controls to prevent staff from entering erroneous data; thus 
keeping caseload data accurate will remain a challenge going 
forward.
    And finally, in order to further improve and expedite case 
processing, DOD has initiated an in-depth business process 
review to better understand how each step impacts processing 
times and identify further IDES streamlining opportunities. 
Such an effort could yield short and long-term recommendations 
for improvement. However, a timetable for completion is yet to 
be established.
    In conclusion, the merger of two duplicative disability 
evaluation systems shows promise for expediting benefits to 
servicemembers. However, nearly 5 years out, delays continue to 
affect progress and their causes are not fully understood. 
Recent initiatives to improve processing and isolate 
bottlenecks are promising; however, it remains to be seen what 
their long-term impacts will be.
    And we will continue to assess DOD's and VA's progress in 
these areas as we proceed to do this work for your Committee. 
Chairman Murray, this concludes my statement. I will be happy 
to answer any questions you might have. Thank you.
    [The prepared statement of Mr. Bertoni follows:]

 Prepared Statement of Daniel Bertoni, Director, Education, Workforce, 
       and Income Security, U.S. GovernmentAccountability Office

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Response to Posthearing Questions Submitted by Hon. Bernard Sanders to 
  Daniel Bertoni, Director, Education, Workforce, and Income Security 
                Issues, Government Accountability Office

    Question 1. In your opinion, are the IDES Process and Timeliness 
goals realistic?
    Response. More information is needed to determine if and how the 
current IDES timeliness goals can be met. While IDES processing times 
increased as the system expanded, the contribution of various factors 
to timeliness is complex and not fully understood. In its testimony and 
in previous work, GAO highlighted issues, such as insufficient staffing 
and logistical challenges, that contributed to delays in processing 
cases. In the meantime, the number and range of IDES facilities and 
enrolled cases steadily increased since the inception of IDES in 2007 
through the completion of its worldwide deployment in 2011, 
complicating the understanding of whether IDES goals are reasonable. 
DOD and VA are now increasing resources devoted to IDES and are at 
various stages of implementing process improvements. Some of these 
changes are in their early stages and it is too soon to know their 
impact on timeliness. DOD is also undertaking a business process 
review, which may allow it to better understand how different IDES 
processes and resource levels contribute to timeliness. These efforts, 
along with a fully deployed and more stable IDES process, may provide 
the departments with an opportunity to reassess resources and 
timeframes, and make adjustments if needed.

    Question 2. Is there any reason why active-duty and Reservists 
should be held to a different timeline in the IDES Process?
    Response. DOD guidance allows for more time in some parts of the 
IDES process to accommodate additional work that may be needed to 
address circumstances that reserve component servicemembers 
(reservists) face. Overall, DOD and VA established a goal of 305 days 
for reservists as compared to 295 days for active duty servicemembers. 
In the medical evaluation board (MEB) phase--during which records are 
compiled and exams conducted--timeliness goals allow an additional 40 
days for processing reservists' cases. The additional MEB time is to 
accommodate reservists that may need to be placed on active duty orders 
and travel to military treatment facilities to undergo the IDES 
process. Also, additional time may be needed to compile medical records 
for reservists. While the MEB goal for reservists is 40 days longer, 
the 30-day goal for the VA benefits phase does not apply to all 
reservists and therefore was subtracted from the reservist overall goal 
for the IDES process. As such, the net effect is that the overall 
reservist goal (305) is 10 days longer than for active component 
servicemembers (295).

    Chairman Murray. Thank you very much, Mr. Bertoni.
    I just wanted to let our Committee Members know that 
following the revelation that possibly hundreds of soldiers at 
Joint Base Lewis-McChord had their PTSD diagnosis changed 
because a group of people did not want to spend money on the 
care and benefits that these servicemembers would receive, I 
asked our Committee staff to conduct an investigation into the 
Joint Disability Evaluation System.
    We are at an interim point in this investigation. Up to 
today, staff have reviewed 121 cases from 23 different IDES 
sites. They have focused on cases involving mental health 
diagnosis in general and PTSD diagnoses in particular.
    I am very troubled by what they found. They have found 
evaluations that focus on perceived malingering or exaggeration 
of symptoms, similar to what we saw at Madigan, without 
documentation of appropriate standardized interview techniques. 
They have encountered inadequate VA medical examinations, 
especially in relation to Traumatic Brain Injury, and VA rating 
decisions issued as part of this joint process contained 
errors, which in some cases impacted the level of benefits the 
veteran should have received.
    So before we begin today's questions, I am entering the 
results of this interim investigation into the record at this 
point and there will be more to come.

    [The report referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Murray. Dr. Rooney, let me start with you. We have 
had discussions in the past regarding this Joint Disability 
Evaluation System and the number of challenges servicemembers 
face while they are going through this process. Recently, it 
has come to my attention that some of our servicemembers 
involved with the disability evaluation process are facing 
retribution and unsupportive behavior from their chains of 
command while on limited duty and waiting for a disability 
decision.
    I have heard from servicemembers who were forced to 
participate in activities in direct violation of doctors' 
orders, who have been disciplined while struggling with 
behavioral health conditions, and who have struggled to get 
access to care because their leadership would not cooperate 
with their treatment requirements.
    I think you agree with me that is completely unacceptable. 
Whether in a Warrior Transition Unit or not, leaders have to 
understand these medical issues and the difficult process that 
these servicemembers are going through and they have to provide 
the leadership and support that these men and women need.
    So I wanted to begin with you by asking you, Dr. Rooney, 
what needs to be done to provide supportive and compassionate 
leadership for these injured servicemembers that are forced to 
wait for a disability decision?
    Ms. Rooney. Senator, clearly the information you just 
shared is troubling on many levels, and I would be very 
interested in speaking with you or your staff or that we can 
actually determine where those issues are occurring and make 
sure that, in fact, the leadership does know, which is the 
Department's position and the leadership at many levels that I 
am familiar with, that that cannot be tolerated, that we must 
understand what is necessary for the care, that there are no 
stigmas associated with being able to address behavioral health 
or mental health issues, and that really is the Department's 
position.
    So in those cases, if there are those substantive issues 
that you mentioned, not only do we need to find out where those 
are so we can work directly with that leadership and correct 
that situation, but we will continue with our ongoing work at 
all levels of commands, not just at the senior level in the 
Department, but we understand that needs to go right through 
the command level of every installation to ensure that, in 
fact, the situations you have described are not occurring.
    Chairman Murray. Well, we need to make sure that is 
happening, because as we all know, these are very challenging 
situations for these soldiers and any kind of retribution 
should not be tolerated, whether it is one case or many. But I 
will share those with you. But I want to make sure that 
systemwide, that leaders throughout the chain of command all 
the way to the bottom, are clearly understanding what these 
soldiers are going through and are not having any kind of 
repercussions on those individuals.
    Ms. Rooney. Absolutely.
    Chairman Murray. Mr. Gingrich, from the perspective of 
someone who has served in many leadership positions within the 
military, what can we do to educate our military leaders on not 
only this process, but really on the medical issues facing so 
many of these young men and women?
    Mr. Gingrich. Madam Chairman, I see a lot of things the 
Army is doing and I know that because I have been to their 
BTCs. They have started, as we were told by GAO, they are now 
bringing in layers all the way up to the Vice Chief of Staff. 
So they have involved the colonel level discussion groups, 
brigadier general, major general, all the way up, and they have 
included VA in every one of those discussion groups.
    So I think getting the information out is the biggest key 
that we have got to go and the biggest challenge we have. The 
Secretary right now, yesterday, spoke to the Sergeant Major 
Academy in the Army and the sergeant majors are now 
understanding that this is a problem that we have to take on as 
two Departments and not just as one, and I think that education 
is happening.
    Chairman Murray. Well, we still have a lot of work to do.
    Mr. Gingrich. Yes, ma'am, we do.
    Chairman Murray. OK. Dr. Rooney, there is no doubt that the 
events at Madigan have shaken the trust and confidence of 
servicemembers who are in the disability evaluation system. I 
believe that transparency and sharing information about the 
ongoing reevaluations that are happening today, and actions 
that the Army and DOD are taking to remedy this situation will 
go a long ways toward restoring some trust in this system.
    I wanted to ask you today what we have learned from the 
investigations that the Army is conducting into the forensic 
psychiatry unit at Madigan.
    Ms. Rooney. Well, as you pointed out earlier, there have 
been 196 reevaluations completed to date, of which 108 of those 
have been diagnosed as having PTSD where before they had not. 
We also identified----
    Chairman Murray. Let me just say that they had been 
diagnosed with PTSD. When they went through the evaluation 
system, they were told they did not. Now going back and re-
evaluating them once they have gone out, we are saying, yes, 
you did indeed have PTSD.
    Ms. Rooney. Correct. 108 of those 196.
    Chairman Murray. More than half.
    Ms. Rooney. Correct. There are 419 that have been 
determined to be eligible for reevaluation, 287 from the 
original group that was looked at, and as you know, the Army 
actually opened the aperture up to see anybody else that would 
have gone through the process while forensic psychiatrists were 
being used. So that was 419 totally eligible for reevaluation.
    And at this point, there are three in progress and 12 being 
scheduled. So what we have learned from that is clearly that 
the process that was put into place at that time did not 
function as originally designed. Evidence did not show that 
there was a mean-spirited attempt, but really to create similar 
diagnoses. Obviously that was not something that occurred.
    So the Army has taken the lessons from here and is actually 
going back to 2001 to reevaluate all of the cases where we 
might have a similar situation. What we are doing from that 
point is not only learning from what Army is doing and looking 
at these reevaluations where we are using the new standards, in 
many ways advances in the medical and the behavioral health 
areas to better diagnose PTSD, but also then we will be taking 
those lessons learned across the other services as well.
    So since Army has the greatest majority of people going 
through, currently about 68 percent of the people in the 
disability evaluation process are from Army, we will take the 
lessons learned from there and apply those across to all of the 
services.
    Chairman Murray. Well, I really appreciate the Army's 
announcement that they are now going to do a comprehensive 
review of PTSD and behavioral health systemwide throughout the 
Army. I believe that is a first and important major step for 
the Army to be doing.
    But I did want to ask you, Dr. Rooney, I had been told by 
Secretary McHugh about the issues that we were seeing at 
Madigan were not systemwide. And then the Secretary announced a 
comprehensive review across all systems. So if we did not 
believe this was a systemwide problem, what led the Army to 
look into a comprehensive review?
    Ms. Rooney. Secretary McHugh and I have had numerous 
conversations, and I believe the use of the forensic 
psychiatrists was primarily isolated to Madigan, and that is 
where I believe that comment of that it was not systemwide, 
because that type of additional part of the process----
    Chairman Murray. So the forensic system was not systemwide, 
but systemwide we have issues with people who are not being 
diagnosed correctly?
    Ms. Rooney. What we want to do is look across the system 
and ensure if we do have issues, that we identify those and we 
are able to get those individuals back into the system. So I 
believe at this point, it was very much a forward leaning 
approach to say, We need to look across the system, not that we 
are convinced that similar problems existed, but that it is the 
right thing to do for the individuals, since as you pointed 
out, we saw a number of these reevaluations ended up with 
diagnoses changed. So it is the right thing to do for our 
people to look across.
    Chairman Murray. OK. I think it is extremely important that 
we find anybody who was misdiagnosed and get them care. So we 
will be continuing to focus on this.
    Ms. Rooney. Absolutely.
    Chairman Murray. With that, let me turn it over to Senator 
Boozman.
    Senator Boozman. Yes, ma'am. With your permission, what I 
would like to do is go ahead and defer to Senator Burr and then 
come back when it is appropriate.
    Chairman Murray. OK, great.
    Senator Burr. I thank my colleague. Madam Chairman, thank 
you for this hearing, and Mr. Gingrich, I share your cold. It 
is not fun.
    Dr. Rooney, do you disagree with the GAO's testimony today?
    Ms. Rooney. Sir, we look at the GAO as a partner to help us 
evaluate how we are doing. I think they brought up some very 
good points in their report. Of course, when you are using 
statistics, we may look a little differently at a particular 
statistic.
    However, I will say that there was nothing in there that we 
did not think really helped us further understand where our 
emphasis needs to be, that there are improvements. We have been 
very open about saying that this is a system that needs 
significant improvements. I think the GAO very much said the 
same thing.
    So we are looking to continue to work with them, take the 
information they provided, and it gives us a roadmap to make 
sure, as we are putting resources to it, we take their report, 
plus our own internal analysis that goes even deeper than 
theirs, to ask, are these improvements making--are the 
resources making improvements to this system, which we all know 
and totally agree is not where we want it to be.
    Senator Burr. Mr. Gingrich, do you disagree with any of the 
testimony of GAO?
    Mr. Gingrich. No, sir. In fact, I look forward to the 
discussions we had before the testimony and the report, because 
I believe any time that somebody gives you insights into what 
you are doing, that you can take care of one more veteran or 
servicemember to make their life better in this transition 
process, we need to look it and make it happen.
    Senator Burr. So we are all in agreement that we are just 
south of 400 days in the cycle of an applicant being processed, 
395, I think, 394. In May 2011, the Secretary of Defense and 
the Secretary of Veterans Affairs committed to revising the 
IDES so that it could be completed in 150 days, and went 
further to agree to explore options for it to be 75 days.
    Now, I have had too many of these hearings. We have them 
every year. And we hear the same thing, Oh, gosh, look at what 
we are doing. I have heard the most glowing progress report 
from both of you. And then I get the realities that the days 
had not changed. You have met some improvement in certain 
areas. I commend you on that, the timeliness goals in areas 
have been better.
    But the reality is that we have got a broken system, and we 
are 5 years into it. And I hear testimony where we are starting 
to begin to review our business processes. Well, you know, why 
did it take 5 years to get to this? What can you convey to me 
today that is concrete that tells me a year from now we are not 
going to be at 393 days?
    When you said earlier we are instituting IT changes this 
summer that will improve our times by 30 or 40, I thought you 
were going to say percent, and you said days. So now my 
expectations are that if we implement what you just said, we 
are going to be down to 360 days, which exceeds the DECSEF 
(Secretary of Defense) and Secretary of VA by 110 days over 
what their goal was for today.
    So share something with me that will tell me we are 
actually going to do this.
    Ms. Rooney. Sir, that was one of the steps. The IT 
solutions are not the only steps. In addition, it was 
indicating that Army has hired 1,218 people, so we are also 
adding people to the process.
    Senator Burr. Are these the first individuals that we have 
hired in the 5 years to plus up?
    Ms. Rooney. It is the largest group of people that we have 
hired.
    Senator Burr. OK. We have hired people, we have plussed up, 
and the overall time of completion went up, not down.
    Ms. Rooney. Many of these changes, sir, are fairly recent.
    Senator Burr. OK. Lt. Gen. Bostick, the Army Deputy Chief 
of Staff, recently called the IDES process fundamentally 
flawed, adversarial, and disjointed. Do you agree with him?
    Ms. Rooney. I have sat next to my colleague many times, and 
we have had these discussions. I believe that we are both 
acknowledging that it is a system that, while initially 
conceived to be one that was smooth, transparent, and easy, we 
have not achieved that result.
    Senator Burr. So what are we doing to change it?
    Ms. Rooney. As my colleague and I have indicated, at this 
point we are literally looking case-by-case. We are following 
cohorts through each step of the process to see when we add 
people to it, are we actually improving the times? I am not 
saying that we are not able to improve it for those already in 
the system, but we have to make sure that we are also tracking 
the new ones in to say, Did we, in fact, cut that time down? 
And it is going step-by-step through that process.
    Senator Burr. I do not want to seem adversarial, doctor. I 
think we are all after the same goal. But you just agreed with 
a statement that General Bostick made where he basically said 
that this system cannot be fixed. Now, if you agree with that, 
my question is very simple.
    Is it time for us to start over again, to take a blank 
sheet of paper and say, How do we design this in a way for the 
benefits of the servicemembers--the number 1 priority and the 
number 1 priority for both, I do not question that--who are 
caught in a system that is unacceptable today from a standpoint 
in the length of time, from a standpoint of the accuracy that 
Senator Murray talked about.
    I guess, you know, my question to you would be, if given a 
blank slate, would the Army design IDES the same way or would 
you do it differently? And if your answer is differently, then 
for God's sakes, let us do it. Tell us what we can do to be 
partners to change this in a way that it works, versus to keep 
a structure of something that individuals who are involved in 
like General Bostick says, is ``Fundamentally flawed, 
adversarial, disjointed.'' That is not the relationship we want 
with our servicemembers that are going through this.
    The Chairman has been very kind to me. I just want to ask 
one last question and this is to Mr. Gingrich. You made the 
statement, I think, in your testimony that VA has the capacity 
to make compensation as early as they choose to after a 
servicemember is discharged. Is that accurate?
    Mr. Gingrich. We can make compensation the day after they 
are discharged. That is correct, Senator.
    Senator Burr. The day after they----
    Mr. Gingrich. Right. By law, we cannot do compensation 
until they have been discharged.
    Senator Burr. How long, on average, is it taking for the 
first VA check to arrive after a servicemember who went through 
the IDES is discharged from the military, not the decision 
letter from the VA, but the actual check?
    Mr. Gingrich. Right now it is taking too long. It is taking 
about 60 days. Part of the reason--and it is not an excuse--but 
part of the reason is we do it by month. So if the person is 
discharged before the pay system is set up, you have eaten 30 
days. We are working through that, and I think one of the 
things that the VTA will give us is that they will give us the 
information we need electronically at the discharge so that we 
can speed that process up.
    I am very confident that we are going to get very close to 
the 30-day goal. By the way, VTA--Dan and I talked--VTA will be 
in place in June and that process will not only allow us to 
track the payment, it will also allow us to track the ratings 
and the discrepancies in the ratings.
    Senator Burr. The Chair has been very kind, and I 
appreciate it. I would ask, would you share with us the data 
that shows us that 60-day average for payment?
    Mr. Gingrich. I will do that, sir.
    Senator Burr. Thank you. Thank you, Chair.

    [The information requested during the hearing follows:]
Response to Request Arising During the Hearing by Hon. Richard Burr to 
 John R. Gingrich, Chief of Staff, U.S. Department of Veterans Affairs

    Question. Ranking Member Burr requested data showing that there is 
an average 60-day time period for a discharged Servicemember whose 
claim has been processed by IDES to begin receiving compensation.
    Response. As of June 8, 2012, VA has processed 7,707 disability 
payments for Servicemembers who have completed the IDES process during 
fiscal year 2012. Currently, VA is averaging 54 days from the date of 
separation to process a payment. The ``shortest period allowed by law'' 
for making VA disability payments following discharge or release from 
the military is the first day of the second month after a Servicemember 
separates. For example, if the Servicemember separates on July 27, the 
earliest date the Servicemember could be paid is September 1. If 
payment is due at the time of award authorization, it is released from 
the Treasury Department within 48 hours of award authorization.

    Chairman Murray. Thank you very much. Senator Tester?
    Senator Tester. Thank you, Madam Chair. I want to go back 
to what Senator Burr was asking about, and I will start with 
you, Dr. Rooney. Do things need to be changed in IDES?
    Ms. Rooney. Yes.
    Senator Tester. Mr. Gingrich, do things need to be changed 
in IDES?
    Mr. Gingrich. Yes, sir.
    Senator Tester. Could you--and I do not want to know them 
now, but could you get back to the Committee with your 
recommendations on what needs to be changed in IDES?
    Ms. Rooney. Yes.
    Mr. Gingrich. Yes, sir.

    [The information requested during the hearing follows:]

 Response to Request Arising During the Hearing by Hon. Jon Tester and 
 Hon. John Boozman to Jo Ann Rooney, Acting Under Secretary of Defense 
        for Personnel and Readiness, U.S. Department of Defense

    Question. Senator Tester and Senator Boozman requested that Dr. 
Rooney give recommendations to the Committee on what changes need to 
made to improve IDES.
    Response. IDES is a significant leap forward for our Servicemembers 
and Veterans, but more can be done. Since 2007, IDES has allowed the 
Departments of Defense (DOD) and Veterans Affairs (VA) to 
simultaneously complete disability evaluations before DOD separates a 
Servicemember so both Departments can provide disability benefits at 
the earliest point allowed under law. It is faster, equitable, and has 
greatly reduced the pay gap that disabled Veterans previously 
experienced following their separation from military service and the 
start of Veterans compensation benefits. Secretary Panetta directed 
that an internal DOD task force review the IDES process, with VA's 
support, and report to him by the end of September 2012 on improvement 
recommendations. The task force is:

    <bullet> Examining methodologies to stratify IDES groups and thus 
reflect different outcome based measurements depending on the nature of 
the group.
    <bullet> Analyzing the current IDES population and those that have 
completed it since the launch of the pilot effort in 2007 to determine 
both the points in the process where the most failures occur and 
correlating process events with the illness/injuries of the 
Servicemember.
    <bullet> Reviewing the current Expedited DES process to identify 
methods to increase its usage rate among qualified Servicemembers.

    Separately, DOD and VA are developing an end-to-end strategy IDES 
Information Technology (IT) to enhance case management and data 
sharing.

    Senator Tester. OK. I would anticipate that those changes 
would add to this simplifying and consolidating as your goals 
were when this was set up between the VA and DOD, would it not? 
I just want to make sure that changes would add to the 
simplification.
    Ms. Rooney. Yes.
    Mr. Gingrich. Yes, sir.
    Senator Tester. Mr. Bertoni, as you look at IDES right now, 
its goal was to simplify and consolidate. Has it simplified, 
was the first question?
    Mr. Bertoni. I would say yes.
    Senator Tester. OK.
    Mr. Bertoni. When you look at what was happening under the 
Legacy system versus now, it is much more simple.
    Senator Tester. Much simpler. Is there an opportunity 
through this system to get feedback from servicemembers and 
address their questions and concerns about this? Is that part 
of the system?
    Mr. Bertoni. There is a survey mechanism whereby 
servicemembers are surveyed after each phase of the process, 
the medical evaluation board, physical evaluation board, and 
transition phase, yes.
    Senator Tester. OK. And so--and that is pretty user-
friendly from your perspective?
    Mr. Bertoni. I do not know about user-friendliness. It is 
four questions per phase, 12 questions. Our concern is the 
limited number of folks who are actually receiving that survey. 
In principle, everyone is eligible to receive it, but if you do 
not opt to do that early on at the med phase, you are excluded 
at the latter phases.
    So we are really limiting the number of folks who are 
having an opportunity to weigh in here on their experience in 
regard to timeliness, transparency, and some other factors.
    Senator Tester. Do you think it is important to get that 
input?
    Mr. Bertoni. Absolutely.
    Senator Tester. Should we be expanding those opportunities?
    Mr. Bertoni. I think it would be absolutely a good idea to 
revise and relook at how they are surveying servicemembers 
right now.
    Senator Tester. I do not want to get out of my lane here, 
but I am going to for a second with Madigan. You said there was 
198 folks, 108 had their diagnosis changed. Were those people--
was their rating done under IDES?
    Ms. Rooney. Many of them were. Some of them were under the 
old process, so those that were before roughly 2008 would have 
been under the old process.
    Senator Tester. OK. So how many of the 198 were--do you 
have those figures broken out? I guess what I want to get at 
is, to have over half the folks not get the proper rating, to 
say that it does not match up with our goals, is an 
understatement. The question is, is IDES actually doing an 
accurate job of making the assessment for the disability, or is 
it not doing as good a job as the old system?
    Ms. Rooney. Actually those people before, since I said most 
of them were before 2008, that would be the old system, and it 
also was adding the forensic psychiatrists in it, which was a 
different aspect of the system. So the new process, and 
frankly, the protocols and the fact that our Departments have 
an integrated mental health strategy for how to do this, should 
have, and by all data that we have seen, improve that 
significantly under the new process.
    Senator Tester. OK. So does that mean all the folks that 
got rated before 2008 we should call them back up and have them 
re-rated?
    Ms. Rooney. In essence, that is what the Army is doing at 
this point, and we are going to take the lessons learned, as I 
indicated to Senator Murray, and see if we need to do that 
across the other services.
    Senator Tester. And what about the other branches of 
government?
    Chairman Murray. Senator, let me just clarify: a large 
number of the ones who were misdiagnosed, or had their 
diagnosis changed inaccurately, were after 2008, after the 
forensic psychology system was put in place.
    Senator Tester. OK. Appreciate that. I mean, we get a lot 
of calls on this kind of stuff, and although I appreciate folks 
calling their Senator to get this squared away, I mean, what it 
tells me is there is an inherent problem here. And then when 
you combine that with the fact that we have got misdiagnosis 
over 50 percent, that is not acceptable. It has got to be 
fixed.
    And if it is the fact that we bring in a forensic 
psychologist and that fixes the problem, that tells me then we 
are talking one person, right?
    Ms. Rooney. Actually that was the issue, was adding that 
additional layer. That is when the initial diagnoses were 
changed and then we had a review again. So that piece, adding 
forensic psychiatrists in the process, has been stopped and 
that does not occur any place across the Department.
    Senator Tester. OK. All right. I mean, look, I have got a 
lot of questions and my time is long passed. Well, I look 
forward to your recommendations on what can be done to improve 
IDES. I certainly appreciate the work you are trying to do, but 
we are not where we need to be, by a long shot, and so, I mean, 
when I heard your testimony, there was good stuff here, and you 
should be touting the stuff you do well. But man, oh man, we 
have got a long ways to go, do you not think?
    Ms. Rooney. Absolutely.
    Senator Tester. And so, how do we get to a point--I mean, 
what do we need to do? Is it manpower? Is it more professional 
people? What is it? I mean, we have got folks coming back and 
the numbers are going to get more and more with the Afghanistan 
drawdown. But the question is, these folks need help, they need 
help early. That really saves money long-term, especially with 
unseen injuries, and where do we go? I mean, where do we go to 
get this fixed?
    Ms. Rooney. Sir, as you indicated earlier on, I believe we 
are going to get back to you with specific recommendations that 
we are seeing from our teams going out as to how we continue to 
move this forward.
    Senator Tester. I look forward to that. Thank you very 
much. Thank you for your testimony. Thank you for your work.

    [The information requested during the hearing follows:]

 Response to Request Arising During the Hearing by Hon. Jon Tester to 
 John R. Gingrich, Chief of Staff, U.S. Department of Veterans Affairs

    Question. Senator Tester and Senator Boozman requested that Mr. 
Gingrich give recommendations to the Committee on what changes need to 
be made to improve IDES.
    Response:

          a. Implement some of the remodeled IDES improvements 
        identified below:

                <bullet> Reduce the number of physical case-file 
                handoffs from 8 to 3.
                <bullet> Make fitness decision for further military 
                service up front, before VA enters into the process.
                <bullet> Ensure VA receives a complete case-file from 
                the Military Services after the fitness decision is 
                made.
          b. Automate the IDES process from beginning to end, and 
        enhance the management reporting capabilities to enable IDES 
        sites to effectively manage their cases.
          c. Identify and implement best practices and implement 
        electronic data sharing throughout the IDES process.

    Chairman Murray. Thank you very much.
    Senator Boozman?
    Senator Boozman. Thank you, Madam Chair. Mr. Bertoni, who 
is in charge of this? We have DOD here, we have VA. Is there a 
person that is actually in charge of the whole process?
    Mr. Bertoni. I would say the Secretaries would say that 
they were in charge of this process.
    Senator Boozman. The Secretary of Defense and the----
    Mr. Bertoni. In partnership with capable folks under them 
tasked with doing a very difficult----
    Senator Boozman. So I guess the question I have got, 
generally, things work better when there is a person to 
oversee. Is there a person that the Secretary of Defense and 
the Secretary of VA have designated to have the authority to 
get some of these things worked out?
    Mr. Bertoni. I know Mr. Gingrich has been pegged as the man 
to address many aspects of this process.
    Senator Boozman. So do you have authority over DOD, also, 
or just VA?
    Mr. Gingrich. Sir, I do not have authority over DOD, but we 
have been working remarkably well in partnership, and I do not 
say that loosely. As I sit down with the Vice Chief of Staff of 
the Army, for example, because that is 68 percent, and we sit 
down monthly. We sit down at different levels in VA with the 
Army, and we are working through this.
    I think part of the issue to address the problem is, we did 
not have a very good dashboard mechanism prior to when we fully 
implemented IDES in September of last year. We now have a 
mechanism. We can go to every single facility, 116 of our 
senior executives get up on the--for my VTCs, the Army has the 
same thing where we do it together. We can go installation by 
installation, individual by individual, which we could not 
track before.
    And I know it sounds something like we are not moving, but 
when we get the VTA in place, we will be able to track every 
single individual, where they are in the system, what kind of 
rating they got, and where they are going. We have got----
    Senator Boozman. I do not mean to interrupt. I guess, you 
know, in business and in general things, you like for a person 
to be accountable.
    Mr. Gingrich. I am accountable directly to Secretary 
Shinseki for the VA portion of this.
    Senator Boozman. I understand that, but I guess I would 
like to see somebody accountable for the whole system. And you 
may be that person, but it is not fair to you, you know, if you 
really do not have the authority to see it through. So I 
personally think that the two Secretaries need to designate 
somebody that has got the authority.
    Now, we do not do that very well in government at all, but 
that is a basic thing. Where do you see the bottleneck, Mr. 
Bertoni? Is it that they cannot be seen or is it a 
decisionmaking process after they are seen?
    Mr. Bertoni. I think going--I have sat here many times 
since 2007 and talked about this whole program process. It 
comes down, I think, to three critical things: people, 
processes, and technology. On many of these sites, there was a 
sense of urgency following Walter Reed. There was a rush to 
stand them up.
    They did not have proper technology, did not have proper 
people and sufficient processes in place. Staff to 
servicemember ratios was insufficient in many respects. They 
were stood up anyway. The servicemen came, they were 
overwhelmed, and I think this system is paying for it to this 
day.
    Processes. We have identified throughout the last several 
years areas of the process that appeared to be inefficient. 
Clearly, we are causing backlogs in inefficiencies. In 
partnership, DOD and VA have addressed some of them; not all. 
We keep pressing that they do.
    And last, technology. We have an Integrated Disability 
Evaluation System, but the system's part has not caught up. We 
have processes that are combined, we have decisionmaking that 
is combined, but the systems have not caught up with the 
process or the demands of the end user.
    Senator Boozman. So do you feel like, in followup to Mr. 
Burr's comments, do you feel like the framework that we have 
now, the IDES, is such that we can meet the goals that we are 
wanting to get to?
    Mr. Bertoni. It is a simpler system. It is more transparent 
in how it operates. It is sort of like a funnel. If you take a 
funnel, you pour water into it, water comes out the other end, 
it works. But if you pour water in that funnel too quickly, too 
fast, you will very quickly find out where the inefficiencies 
are. That is what is happening.
    We have had rapid increases in inputs, in enrollments, and 
the inefficiencies and bottlenecks in this system are becoming 
readily apparent, and they need to get behind that with some of 
this mapping and business process redesign.
    Senator Boozman. My concern is, you know, that we have a 
culture somewhat that just is difficult to deal with these 
things. I am approached by people all the time that are just 
separating out of VA, just retiring, and it is not uncommon, 
you know, to wait a year before you start drawing your 
retirement. That is without all of this other stuff going on.
    So again, I think we have got some real problems that we 
need to look at, and I would welcome, also--and I think it is 
important that you understand that I am with you, but I do 
think that it is important that we get some feedback as to how 
we can help you to streamline that process and similar 
processes. Thank you. Thank you, Madam Chair.
    Chairman Murray. Thank you. Senator Johanns?

                STATEMENT OF HON. MIKE JOHANNS, 
                    U.S. SENATOR FROM NEVADA

    Senator Johanns. Madam Chair, thanks for holding this 
hearing. You can tell the frustration of the Committee Members. 
In this town sometimes it is hard to find bipartisanship, as we 
all know. I will guarantee that frustration here is very 
bipartisan. Everybody is frustrated, regardless of which end of 
the dais you sit on.
    Here is my concern. I was looking through some of the 
numbers and, Mr. Bertoni, you talked about them a little bit in 
your testimony. Overall average time to complete IDES active 
components of military, the goal is 295 days; we are at 395. 
But at Fort Belvoir, it is 537 days. That is stunning. I cannot 
even believe that. Percentage of active duty members who 
complete IDES within the 295-day goal, the goal is 60 percent; 
actual results are 18 percent. At Fort Meade, it is 0 percent, 
nobody, nobody.
    Overall average time to complete IDES for Guard members, 
excluding those who return to duty, agency's goal is 305 days; 
408 days is the actual. 651 days at Fort Carson. It is just 
nearly embarrassing to go through these statistics.
    The concerning thing for me is that I do not hear anything 
today that makes me feel, Gosh, we are going to turn the corner 
here. In fact, I must admit quite the opposite. I am going to 
walk away from this hearing very, very worried that the system 
is imploding, that whatever we have done to try to get on top 
of this system just is not working.
    So, Mr. Bertoni, let me ask you just a very, very direct 
question. How long is it going to take, 1 year, 2 years, 5 
years, to actually see progress in meeting these goals?
    Mr. Bertoni. I cannot give you a specific timeframe. I 
would say that one thing that the services and VA are dealing 
with is enrollments are up significantly, doubling each year. 
In 2009, there were 4,000 enrollments; 2010, about 9,000; and 
last year, 19,000. So we have multitudes coming into this 
program very rapidly and that is going to increase going 
further.
    So they really do need to continually look at their 
processes and look for streamlining opportunities. We have said 
all along they need to get their staff to servicemember ratios 
aligned with what they think they need to be doing.
    Again, automation. You can leverage so much with 
automation, accounts for many people. So there are things in 
play. They must continue to look at what they are doing and to 
look for efficiencies. And to their credit, more recent data in 
the MEB phase shows that the data is trending more positively 
over the last 6 months.
    The VA medical exam, they had never been able to meet that 
goal. At the time of our review it was 70 days. As of this 
month, they are at 39 days, under the 45-day goal. So there is 
some positive trending in MEB. That is the good news.
    The bad news is, those cases are being pushed further to 
the PEB, and those processing times are rapidly increasing. 
They have a 120-day goal and they are starting to push against 
that threshold. So what is going on in the PEB, what is causing 
inefficiencies there, what did they do in the MEB to create 
efficiencies, what can you learn from those?
    This mapping exercise, this process, re-engineering 
exercise, I think, could be valuable. Should they have done it 
earlier? Yes, they could have done it before each major phase, 
and I think they would have been in a better position. So I 
cannot give you a timeframe, but I am hopeful next year the 
numbers will be better, if I am here.
    Senator Johanns. Do you agree with--let me ask the two 
other witnesses. Do you think you are turning the corner?
    Mr. Gingrich. Sir, I am absolutely convinced we are turning 
the corner. We have gotten our production up where we are going 
to do about 2,500 cases a month, which we believe is looking at 
the flow that is coming in and the flow that is going out, that 
it is about 2,500. If we can sustain that starting in August, 
we will be able to move forward.
    He is right. We did not get our claims--none of our 
processes in VA last year were meeting the standard. We are now 
62 percent, in April, of the servicemembers that we processed 
in the process were on time. That is up from 20. Now, one of 
the things we have done to take some risk here is we decided, 
with at least the Army, to say, Let us get all the old jobs--
that is why I said the one at 254 days--and let us get them out 
of the system because they are just holding up everybody and it 
is extending it.
    So numbers will go up a little bit when you start taking 
the older cases out, but those individuals have been in the 
system way too long. And so, I think we are making progress 
into a turning phase. Will we get to 295 days and 60 percent of 
the servicemembers by 31 December? There are risks there, but I 
think the services and DOD and VA, as partners, have come 
together and said, How are we going to get there?
    The Secretary said to us 3 months ago now when we were 
sitting at the meeting of the two Secretaries, We want to get 
to 60 percent. We want to get to 100 percent, but instead of 
trying to bite the whole thing, let us get to 60 percent by 
December 31st and then we will take on the rest of it to get to 
100 percent.
    Because every single one of these servicemembers we are 
doing this to, when they become veterans, as we have talked 
before, we have had them for 50, 60, 70 years and we have got 
to get them in the system right. We have got to take care of 
them and make sure they transition correctly.
    The other part that I would say, to answer your question, 
if we do not get this right by this summer, we are going to be 
challenged when we go to the VOW Act, because this is 10 
percent of the population going through, and the VOW Act that 
you--that Congress so graciously gave us to be able to 
implement, will have a process that is even bigger.
    And I think the things that we are putting in place today 
in VA and DOD will help us get both those systems done 
correctly.
    Senator Johanns. I have run out of time, so I hate to cut 
you off, Dr. Rooney, because I am sure you had a thought here, 
too. Feel free to submit that in writing if you would like. But 
I will just wrap up my questions with a request to Mr. Bertoni. 
I think it would be good if you could assess this for us on 
some kind of periodic basis, just to give us some indication 
that progress is, in fact, being made.
    It would be terribly unfortunate if we showed up in 6 
months and nothing is happening, and that would be terribly 
unfortunate. So that would be my individual request. The Chair 
runs the Committee, but it would be something that I certainly 
would like to see.

    [The information requested during the hearing follows:]
Response to Request Arising During the Hearing by Hon. Mike Johanns to 
 Daniel Bertoni, Director, Education, Workforce, and Income Security, 
                 U.S. Government Accountability Office
    Question. Senator Johanns requested periodic assessments on whether 
VA and DOD are making progress in improving IDES.
    Response. At this time GAO does not plan to conduct ongoing 
assessments of IDES. We will continue to work with your staff to assure 
that GAO is meeting the needs of the Committee regarding our review of 
IDES.

    Mr. Bertoni. And we have been in this mix since it was a 
tabletop exercise in 2007. I have testified numerous times, 
multiple products. It would be worse, I think, if we were not 
in there. And I think in regard to your issue of diagnostic 
differences, 2 years ago, I said this was an issue. It could be 
problematic in terms of the treatment of servicemembers in 
terms of backlogs of the cases.
    If you have a diagnostic difference, you have to keep going 
back, new exams. You get caught on this medical exam hamster 
wheel and cases age out, you have to do it all over again. We 
asked that this issue be looked at. A consultant went in and 
looked at it, but did not do what we thought should be done.
    What should have been is what you are doing now, in-depth 
case file reviews to get extent of nature and extent of these 
diagnostic differences. Then you have guidance around that, you 
have training around that, and then you capture data going 
forward so you can identify hot pockets in trouble areas going 
forward.
    Had VTA been in place with the data indicating where they 
were having diagnostic differences, it would not have taken 
servicemembers to come forward making noise about treatment at 
Madigan. You could have that MI data at your fingertips and 
decide whether you need to get out there, see what is going on, 
do some remedial training, et cetera.
    Senator Johanns. Thank you.
    Chairman Murray. And I would just add, Senator Johanns, as 
a result of what we have looked at at Madigan, that is being 
reviewed back to 2007, I believe, all cases. But Army-wide now, 
as a result of the work I have done, they are now going back to 
2001 to review all Army cases. But it still is not systemwide. 
And I think that that has to be part of it. So it is something 
I am very focused on. We will work with you on making sure we 
continue to stay on top of this.
    I want to go back, Dr. Rooney. I am very concerned about 
what I continue to hear about the Warrior Transition Units and 
the IDES experience itself. I hear from servicemembers who are 
in the disability process, that they are languishing in this 
process without any meaningful or productive things to do.
    Servicemembers tell us that they feel that their commanders 
are out to get them. And on the other hand, we hear from 
commanders that they feel these servicemembers are being 
deliberately obstructive in delaying the process in order to be 
more difficult. That kind of adversarial relationship cannot be 
beneficial for either the unit or the servicemember who is 
trying to move on with their life.
    And worse, frankly, I continue to hear about servicemembers 
who are overdosing on drugs, committing suicide, committing 
serious crimes, and at Joint Base Lewis-McChord in my homestate 
of Washington, six servicemembers have died from suicide, auto 
accidents, or drugs while they are in the IDES process. That is 
happening at bases across the Nation.
    So I hope you share my belief that we can do this better, 
but I wanted to ask you, what is the Department going to do to 
make sure that there is an effective, supportive leadership at 
all levels to make sure that this is not happening?
    Ms. Rooney. Some of the specifics you pointed out, in terms 
of making sure that we are looking at that transition process 
proactively, working with those servicemembers going through 
that process so that they can identify skills and possible 
career opportunities, those programs, some of those are already 
in place. We will be doing more and piloting more not just for 
those in the disability process, but throughout transition, as 
we have talked before, starting this summer. That is one piece 
of it.
    The second one, as we indicated earlier, is really making 
sure that the communication is not just at the senior 
leadership, but absolutely is translated down through the 
chains of command right to the base. I believe Mr. Gingrich 
pointed out some meetings with the Sergeant Majors and other 
senior enlisted and that is going on in the Department as well.
    Each of the service chiefs have been going out to meet 
directly with various commands. As you know and I have 
mentioned to you, I spend probably about half of my time on 
issues surrounding this and have been back out to Washington 
State, have been down to San Antonio and others so that I could 
also go out to the bases and help reinforce and see what is 
happening there so we can identify where there are those 
disconnects and get that message consistently across the 
Department.
    So it is not only across DOD, but it is also with our 
partners in VA that we are continually sending the message and 
working at this, and where there are issues, not looking aside 
from those, but going right out and identifying where are they, 
what is the problem. And whether that is because there seems to 
be a backlog in cases and why is that at certain installations, 
we will target efforts to find out, is that a process issue, is 
it a command issue? What are the various pieces to do this? And 
we do have it broken down that succinctly and that is the way 
we are following through.
    Chairman Murray. I appreciate that, and I appreciate your 
sitting before this Committee and saying this. We want results 
from this, as I am sure you do, too. So it has to be a lot more 
than just testimony before this Committee. It has to be real 
action all the way down and we will be closely following that. 
We cannot have these hearings every 6 months or every year and 
keep hearing the same things.
    One of the things that I hear most often from 
servicemembers in this joint process is that they do not have 
any idea of when they are going to separate from the service. 
They want to make plans to move or go to school or get back 
with their families or whatever they are doing, and as we heard 
today, those numbers of days keeps rising.
    Last fiscal year, the average processing time, as we heard, 
was 394 days for active duty, 420 for Guard and Reserve. That 
is unacceptable for someone who is just waiting to figure out 
what they are going to do with the rest of their lives.
    I really believe that these servicemembers would benefit 
from knowing what the time is actually going to be at the 
installation where they are, rather than just saying we have a 
goal here of so many days, but what is it at your installation? 
We need an honest approach even if it is not what we like, but 
at least telling them a real number.
    I would like both of your Departments to look into that and 
report back to this Committee on the possibility of having real 
information for these men and women.

    [The information requested during the hearing follows:]

Response to Request Arising During the Hearing by Hon. Patty Murray to 
 John R. Gingrich, Chief of Staff, U.S. Department of Veterans Affairs

    Question. Chairman Murray requested that Mr. Gingrich report back 
to the Committee on giving Servicemembers in WTU's a realistic estimate 
of how long it will take for their claims to be processed at their 
installation and for them to be discharged.
    Response. Currently, VA is averaging 54 days from the date of 
separation to process a payment. VA does not have control over the 
discharge dates.

    Chairman Murray. Let me also say that the only way that we 
are going to restore trust, which is really important, is by 
focusing on consistency and accuracy of decisions, and I hope 
that both the VA and the DOD have really learned from VA's 
claim system struggles with how important it is to get the 
disability decisions correct the first time.
    I am concerned because Committee oversight has revealed, as 
I talked about earlier, IDES rating decisions with errors. 
Given that the military relies on the disability level assigned 
by the VA, these errors could impact the benefits that 
servicemembers will receive from the military, and also the 
benefits from the VA.
    So, Mr. Gingrich, when the VA identifies an error in a 
rating decision, do you alert DOD that the error can be fixed 
before separation?
    Mr. Gingrich. Madam Chairman, there are two things we do. 
If it is before separation, we notify the PEB and we notify the 
individual, and we get the correction done before. If it is 
after and the person is now a veteran and we discover it--we 
know one case so far we found, that the individual had a 
discrepancy in the rating and they would have changed the 
rating, we have helped that individual and gone back to the 
service and helped that individual get their records corrected.
    Chairman Murray. If a servicemember believes that there is 
an incorrect rating or whose claim has been identified as 
incorrect, what recourse do they have to go back and get the 
DOD rating changed?
    Mr. Gingrich. If we substantiate it, it would be fairly 
simple for them to get it corrected. If it is not a mistake 
that we made or it is not an error that was made at the time 
and it is the condition that has changed later, then it would 
be very much more difficult.
    But we talked about it yesterday, and we decided that we 
needed to make sure the process is such that the veteran or the 
active duty servicemember does not have to do anything. We take 
care of it and we do it for them. To get it started, we give 
them the information they need and then they work the system. 
So we will be proactively involved in any of these that we 
find.
    Chairman Murray. OK. Well, we will have more information on 
what we are finding and expect to work with you on that.
    Mr. Gingrich. And ma'am, we look forward to that and we 
will work each and every case you give us.
    Chairman Murray. OK. I have several other questions for the 
record, but I did want to focus on the Integrated Electronic 
Health Record. We know that delays in IDES are driven, in part, 
by problems accessing information and sharing paper files 
between the Departments. Those challenges are not unique to 
IDES, but they do affect every aspect of a servicemember's 
transition to VA, including how their health and benefits 
information is shared.
    Now, we have heard a lot of talk from VA and DOD that they 
are making progress on data sharing through their work on the 
Integrated Electronic Health Record and the Virtual Lifetime 
Electronic Record. But according to this week's press release, 
only two sites will have initial joint electronic health record 
capabilities by 2014, with 2017 actually being the target date 
for implementation of this.
    Now, the Departments have both said that the key to their 
collaboration and key to the success or failure of disability 
evaluations and transition are these electronic health records. 
It seems to me that this should be a priority for absolutely 
everybody. The project has been plagued, as you well know, by 
false starts and budget issues, and planning is not complete.
    I understand that a lot of positions at the office 
responsible for staffing and managing these projects are 
unfilled yet. I understand it is only 30 percent staffed. But 
how can the Departments say this is a priority when it is only 
30 percent staffed, and we are talking about 2017 as the target 
date?
    Ms. Rooney. I believe regarding staffing--and we will get 
you the most recent numbers--we continually add staff so that 
we are fully staffed up, but that is not impeding progress at 
the current point. There has been substantial progress made in 
terms of this Inter-Agency Program Office with a new director 
actually named within the past 3 months with extensive 
experience.
    And you are right. Both Secretaries announced jointly this 
week that by 2014, both in San Antonio and at Hampton Roads, we 
will have initial operating capability of this system, which 
will have multiple areas from pharmacy on down to medical 
records that are functional.
    I think they also pointed out when they announced it that 
we are moving forward, but we are also moving forward 
deliberately because we cannot afford to have any errors in 
these actual records going forward. So this is both safety and 
concern for individuals, to be able to get this right.
    We do have some systems currently and one of the things 
that both Secretaries viewed when they were in north Chicago 
was an example where we have been able to use existing systems, 
and it is not the long-term solution, but it is one that is 
working now, and begin to exchange data much better. So we are 
learning from that and integrating that into this electronic 
health record.
    So it is a priority. We are growing the staff, but we also 
want to make sure that there is no chance for errors because 
these are people and their information, and we cannot afford to 
have any errors.

    [The information requested during the hearing follows:]

Response to Request Arising During the Hearing by Hon. Patty Murray to 
  Jo Ann Rooney, Acting Under Secretary of Defense for Personnel and 
                 Readiness, U.S. Department of Defense

    Question. Dr. Rooney stated she would provide the most recent data 
to Chairman Murray on number of new hires to more quickly implement the 
integrated electronic health records system.
    Response. Below is an extract from a larger, more detailed 
presentation that was delivered to SVAC staff to satisfy a due-out from 
a 23 April 2012 SVAC/SASC briefing.
    The following provides a staffing summary as of 31 July 2012:

    <bullet> IPO TOTAL FILLED = 48 DOD + 58 VA = 106 / 236 = 44.91%

        - DOD Total Filled = 48 / 116 = 41.37%.

        - VA Total Filled = 58 / 120 = 48.33%.

          o VA-OIT Total = 2 filled, 31 detailed = 33 / 120 = 27.5%.

                - 31 Details to be extended until transfer or hiring 
                action completed.

          o  VA-VHA Total = 25 pending reassignment in June 16, 2012 + 
        1 additional detailed (not pending assignment) = 25 / 120 = 
        20.83%.

    <bullet>  The chart below illustrates that the IPO will achieve 
100% staffing (236 FTE's) by March 2013.

    <bullet>  Currently the IPO staffing level is evaluated and tracked 
on a monthly basis, and progress is evaluated by the following 
criteria:

        - Red:  >25% under staffing projections over time.
        - Yellow:  12.5% < Yellow < 25% (half the red criteria).
        - Green:  <12.5%.

    Chairman Murray. Mr. Gingrich, do you want to comment?
    Mr. Gingrich. I agree with Secretary Rooney. This is a 
priority of this Department. The Secretary has made it his 
number 1 priority. He has pushed it hard. And we do see--it 
sounds like it is not much, but its ability to be able, with a 
single sign-on, be able to look at a screen and get data from 
either VistA or Alta and be able to do a medical evaluation, it 
is clear, it is clean, and it is doable.
    We are looking at how do we do that other places. I also 
think the integration of the hospital pharmacy has to be done, 
as we are going to talk about. That is very complicated, but 
they are doing it there, and they are making it work. So we are 
making progress. Are we making progress as fast as both 
Secretaries like? Probably not, but we are making progress, and 
we are pushing it.
    That is why we talked about things like the VTA. That is 
not the electronic health record, but it will inform the 
electronic health record and it will also inform VBMS and 
things like that that we will have. So we are doing little 
pieces as we are going along in addition to the full electronic 
health record, ma'am.
    Chairman Murray. Senator Boozman?
    Senator Boozman. Well, I really do not have any more 
questions, but I think the point that you made, Madam Chair, 
about if we could really give these folks a realistic idea of 
what is going on, I know in my life, I think all of our lives, 
the most difficult time is when you are in a period of 
uncertainty. And, you know, these are professionals that are 
used to bureaucracy and this and that, being in the service 
they have been in, but I do think that that is such a little 
thing, but it is a huge deal. And so, if we can work on that?
    The other thing is, is that we have a situation where this 
is the number 1 goal of the Secretaries and things to try and 
get this sorted out. They are meeting on a monthly basis. 
Something that we might consider is maybe you and the Ranking 
Member, Senator Burr, and perhaps Chairman Miller, Ranking 
Member Filner--I know they are as concerned as we are about 
this--that maybe on some sort of a basis--maybe monthly, bi-
monthly, whatever--you all feel is appropriate, or somebody 
that you designate, for you all to get together and basically, 
you know, let us talk about how things are going.
    And the other thing is how we, as a Congress, if there are 
things that we can do to again facilitate and just really all 
work together--I know that you all want, in all of your 
capacities, to get this worked out as much as anybody, and 
certainly we want to be there to help you. But it is something 
that we have to get worked out. Thank you, Madam Chair.
    Chairman Murray. Thank you very much. Let me just say that 
ensuring an accurate, efficient, and seamless disability 
evaluation process for our servicemembers really is a critical 
part of making sure that they receive the care and benefits 
that they deserve.
    Clearly, there is a lot more work to be done. We have seen 
some steps in the right direction, but it is going to take 
continued engagement and cooperation from both Departments to 
get this right. So that is the message that I would really urge 
both of you, Dr. Rooney and Mr. Gingrich, to share with 
Secretaries Shinseki and Panetta.
    We also need to share this message with the lower levels, 
too. It is very clear squad member leaders and squad leaders 
who interact every day with these servicemembers need to get 
the message as well. So I hope you follow up on that. This 
system has been experiencing a lot of challenges for a very 
long time, but we owe it to our military members who have 
served this country to get this right and that is what this 
Committee is focused on, and we want to urge you to really, 
really, from the top all the way to the bottom, work to get 
this done right.
    So thank you very much for your testimony today and your 
work on this. With that, this hearing is adjourned.
    [Whereupon, at 11:34 a.m., the hearing was adjourned.]


                            A P P E N D I X

                              ----------                              


          Prepared Statement of Paralyzed Veterans of America

    Chairman Murray, Ranking Member Burr, and Members of the Committee, 
Paralyzed Veterans of America (PVA) appreciates the opportunity to 
submit a Statement for the Record regarding Seamless Transition of 
servicemembers to veteran status and the effect the Integrated 
Disability Evaluation System (IDES) is having on the transition 
process. This is not only important to PVA, but was also an issue 
identified in The Independent Budget that was recently published by 
AMVETS, Disabled American Veterans, PVA and the Veterans of Foreign 
Wars. While in many ways the IDES can provide benefits to veterans, PVA 
has identified potential serious issues with the system.
    When the President's Commission on Care for America's Returning 
Wounded Warriors recommended that the Department of Defense (DOD) and 
the Department of Veterans Affairs (VA) create a single, comprehensive, 
standardized medical examination that DOD would administer, Veterans 
Service Organizations (VSO) supported the recommendation. This exam 
would serve DOD's purpose of determining fitness for duty and VA's 
purpose of determining initial disability level. PVA believes this 
should be a mandatory examination and an integrated element of the 
military separation process and VA should be responsible for handling 
this duty as VA has the expertise to conduct a more thorough and 
comprehensive examination.
    The Disability Evaluation System (DES) is the mechanism used to 
evaluate a servicemember for fitness for duty by the DOD and to 
compensate for injury or disease incurred in the line of duty which 
inhibits a servicemembers' ability to perform their duties. DES 
includes a medical evaluation board (MEB) which is an informal process 
of the medical treatment facility, a physical evaluation board (PEB) 
which is an informal and formal fitness for duty and disability 
determination, an appellate review process, and a final disposition. A 
PEB Liaison Officer (PEBLO) is assigned to assist the servicemember 
through the process. The PEB recommends the servicemember either return 
to duty, be placed on temporary disabled/retired list, separate from 
active duty, or be medically retired. While the DOD Legacy DES process 
only rates those disabilities that directly impact continued military 
service, the VA evaluation takes into account all disabilities incurred 
or aggravated during military service warranting a disability rating of 
10 percent or higher.
    The DES pilot project premised on the President's Commission on 
Care for America's Returning Wounded Warriors recommendation was 
launched by the DOD and VA in 2007. Based on servicemembers' high 
satisfaction rates with the revised program, the DOD and VA designed an 
integrated disability evaluation system (IDES), with the goal of 
speeding the delivery of VA benefits to all transitioning 
servicemembers. The current 27 locations participating in the pilot 
program examine about 47 percent of servicemembers (12,735 in 2010) who 
enter the DOD disability evaluation system annually.
    The IDES allows servicemembers to file a VA disability claim when 
they are referred for evaluation. VA provides a disability rating for 
each condition found during the medical exam, and the PEB uses these 
ratings to determine the type of separation or retirement for which the 
member is eligible. Under the system, the DOD can only consider 
conditions that are unfitting when determining disability ratings, 
while VA determines disability ratings for all service-connected 
conditions, even the ones that would not result in a finding of unfit 
for continued military service. The DOD uses the VA disability 
percentages for each condition, but may have a different combined 
disability rating than VA awards because conditions that are not 
unfitting are not considered in the DOD calculations. Thus, a 
servicemember's disabilities and their functional impact must be 
delineated for accurate evaluation against the VA Combined Rating 
Table. PVA is concerned that the system does not ensure servicemembers' 
records accurately describe numerous possible disabilities.
    While VSOs have been pleased at the progress of the IDES to date, 
servicemembers who are participating in the new approach to discharge 
evaluation are not systematically being encouraged to seek 
representation from a VSO Service Representative. Most are relying 
instead on the advisory services of military counsel, yet each service 
provides access to military legal counsel in different manners and 
circumstances.
    From the outset, PVA does not believe the system was set up for 
success. VA and DOD engaged in working groups early on that did not 
include input from the VSO community. It appears that attorneys and 
paralegals, who function under Title 10, replaced the function of VSO 
Service Officers, who derived their authority from Title 38. But since 
active duty servicemembers fall under Title 10 authority, VSOs are 
essentially cutoff from these men and women until they become veterans. 
This creates a problem where VSOs are essentially left to clean up and 
attempt to correct a improperly completed claim that was preventable 
with adequate initial counseling and claims development.
    IDES attempts to reconcile the PEB and Compensation and Pension 
(C&P) processes by having the servicemember submit to one medical exam 
or series of exams serving both purposes. The problem is PEB is meant 
to determine fitness for duty while C&P determines total disability for 
compensation purposes. Conditions that are often not regarded for PEB 
purposes, such as diabetes, sleep apnea, mild musculoskeletal 
degeneration, and tinnitus for examples, can have major implications in 
a VA disability rating. When a question or conflict arises, it is 
unclear whether VA or DOD has jurisdiction to resolve the matter before 
it flowers into a protracted, system-clogging appeal once the veteran 
realizes the mistake. This is often only after later consulting with a 
VSO service officer. Not only will this potentially delay proper 
compensation for the new disabled veteran, it adds an additional strain 
to an already horribly backlogged claims system.
    Finally, PVA questions whether those designated as Soldiers Counsel 
possess the requisite knowledge of VA law and the claims processes to 
adequately function as accredited representatives. Servicemembers have 
no choice but to rely on the expertise ostensibly wielded by these 
individuals. If knowledge is lacking, the effects are felt downstream, 
after the servicemember is discharged and it's too late. What level of 
training are these individuals required to undergo, both initially and 
continually, that meets the same standard directed under Title 38 for 
service officers? While there is no doubt that these are dedicated and 
conscientious individuals, if the MEB staff and PEBLOs are expected to 
participate in the development of a servicemember's co-existent 
fitness-for-service evaluation/VA claim, then these individuals should 
also have some familiarity with the VA claims process insofar as their 
intervention could impact entitlement to benefits. The end result is a 
severe disservice to the discharged veteran.
    The most important issue should be the best care and support to the 
servicemember. With this goal, PVA recommends that the DOD and VA 
provide greater information to all military personnel going through 
IDES about the advantages and benefits of using a VSO service officer. 
They should be provided the option to choose between the legal counsel 
offered by the military and that available at no cost through the 
system of national service officers of chartered Veterans Service 
Organizations.
    To facilitate this process, it will be critical that DOD allow 
access to military installations for chartered Veterans Service 
Organizations to provide services to active duty personnel. This should 
include their incorporation in all Transition Assistance Programs. This 
is in no way to detract from the services being provided by the 
military, but should be one more resource to better prepare 
servicemembers for their transition to veteran status.
    And finally, even as the current military conflicts drawdown, 
members of the Reserve and National Guard continue to play a major role 
in military operations and deployments. The DOD mandatory separation 
physical examination should be required for all demobilizing National 
Guard and Reserve members, not just active duty personnel. In many 
ways, this may be even more important to these servicemembers who 
rapidly depart from the support and medical care structure of active 
duty and return to their communities, often widely dispersed rural 
areas with limited medical care opportunities.
    PVA supports the IDES and believes it is an important program that 
benefits transitioning servicemembers. As with many programs, once 
implemented unforeseen issues and consequences begin to appear and need 
to be addressed. It is critical that America's military be provided the 
best services and support as they leave the military and we ask 
Congress to ensure that both DOD and VA work to correct these issues so 
that our newest veterans have the best opportunity for a new life and 
brighter future as they transition to the civilian community.
      

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
